<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Pryor, Hutchison, and Murkowski.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF LOUIS JEROME HANSEN, DEPUTY ASSISTANT, 
            SECRETARY OF THE ARMY (STRATEGIC 
            INFRASTRUCTURE) AND SENIOR OFFICIAL 
            PERFORMING DUTIES OF ASSISTANT SECRETARY OF 
            THE ARMY (INSTALLATIONS AND ENVIRONMENT)
ACCOMPANIED BY:
        JOSEPH F. CALCARA, DEPUTY ASSISTANT, SECRETARY OF THE ARMY 
            (INSTALLATIONS AND HOUSING)
        BRIGADIER GENERAL JAMES C. BOOZER, SR., DIRECTOR, OPERATIONS, 
            OFFICE OF THE ASSISTANT CHIEF OF STAFF FOR INSTALLATION 
            MANAGEMENT
        MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DEPUTY DIRECTOR, 
            ARMY NATIONAL GUARD
        BRIGADIER GENERAL JULIA A. KRAUS, DEPUTY CHIEF, U.S. ARMY 
            RESERVE, DEPUTY COMMANDER FOR MANAGEMENT, RESOURCES, AND 
            SUPPORT


                OPENING STATEMENT OF SENATOR TIM JOHNSON


    Senator Johnson. Good afternoon. This hearing will come to 
order.
    I welcome everyone to today's hearing. We are here to 
discuss the President's fiscal year 2010 budget request for 
military construction and family housing.
    We will hear from two panels of witnesses representing the 
Army and the Air Force and the Reserve components. The first 
panel will be the Army.
    Our procedure is to have opening statements by the chairman 
and ranking member, followed by an opening statement from our 
witnesses. In addition to the oral statements, all prepared 
statements from our witnesses will be entered into the record.
    I request that our members limit their questions to 6-
minute rounds.
    Secretary Hansen, Secretary Calcara, General Boozer, 
General Carpenter, and General Kraus, thank you for coming 
today. We look forward to your testimony.
    The Army's fiscal year 2010 budget request for active and 
Reserve military construction and family housing is $5.25 
billion, which is a 41 percent decrease from the fiscal year 
2009 enacted level. The active component is down 24 percent 
from the fiscal year 2009 enacted level, and the Army Guard is 
down 54 percent. Only the Army Reserve is showing an increase. 
I hope that you will address this trend and the reasons for it 
in your opening statement.
    I am also interested in what impact the decision to reduce 
the Army's brigade combat team structure from 48 to 45 BCTs 
will have on the military construction, in particular on the 
stationing of Army forces in Europe and the global posture 
structure overall.
    The Army continues to face a number of budget pressures due 
to wars in Iraq and Afghanistan, the execution of the BRAC 
program, and the ``grow the force'' initiative. It is very 
important that adequate resources are available for the 
military construction projects needed to support these efforts, 
and I look forward to your assessment of the fiscal year 2010 
budget request.
    I now turn to my ranking member, Senator Hutchison, for her 
opening remarks.


               STATEMENT OF SENATOR KAY BAILEY HUTCHISON


    Senator Hutchison. Well, thank you. Thank you very much, 
Mr. Chairman.
    I appreciate your holding the hearing, and I thank all of 
the witnesses for coming and sharing the priorities that you 
have with us.
    The fiscal year 2010 budget request contains $7.5 billion 
for implementing BRAC construction. That is a 15 percent 
decrease from the fiscal year 2009 level. I understand that 
there is a request for $1.4 billion for overseas contingency 
operations that will be handled separately. So while we don't 
have all of your justifications yet for that, we will have to 
decide how that goes into this bill.
    But I hope today's discussions with the Army and the Air 
Force address how the Department intends to complete all of the 
BRAC-recommended actions before the statutory deadline of 
September 30, 2011. Since the largest portion of the BRAC 
request goes to the Army, I hope Mr. Calcara will be prepared 
to speak to that.
    Concerning the fiscal year 2010 budget request, I am 
concerned about the Army's investment in infrastructure in the 
United States. The active duty construction request is down 24 
percent from last year's enacted level, and the Guard request 
is down 46 percent. I am pleased to see that the Reserve 
component has requested an increase of 33 percent, but overall, 
the Army's $4 billion request is a 23 percent decrease. So I 
will look forward to Mr. Calcara discussing that.
    When we were considering the stimulus bill several months 
ago, I thought that we should be increasing our military 
construction and moving it up because, of course, we know that 
there is a FYDP, and if we push that up, it is money that we 
were going to spend anyway. We would just be creating jobs more 
quickly for Americans. That amendment did not see the light of 
day.
    Our U.S. installations at places like Fort Hood, Fort 
Bliss, and Fort Bragg offer large maneuver areas, automated 
ranges, modern simulator training, and few restrictions on 
nighttime flying and training. As a result, soldiers trained in 
the United States and deployed overseas are better prepared to 
fight on day one of a conflict than those stationed overseas, 
where our forces must contend with onerous training 
restrictions.
    Today, with our modern strategic deployment capabilities 
and the use of airlift and roll-on/roll-off ships, we can often 
project power from the United States faster than an overseas-
based unit. The Overseas Basing Commission recommendations that 
our committee drafted and were enacted, in those, the BRAC 
recommendations and the global defense posture that focuses on 
expanded allied roles and partnerships dictate that it is in 
our national interest to relocate more of our soldiers back to 
the United States and fulfill overseas training and contingency 
missions by deploying U.S.-based troops where needed.
    Stationing our troops in the United States provides more 
operational freedom of action, better training, and better 
family support than would be possible otherwise.
    I must also point out that our current military has more 
citizen soldiers than we have seen in a great many years. I am 
very concerned about the overall trend in military construction 
for our Guard and Reserve components.
    I would like to mention again this year the Army's new 
modular force plan, which will reorganize units into brigade 
combat teams. I understand this is about 80 percent complete 
now. The new plan calls for five new BCTs to be stationed at 
Fort Bliss, Fort Stewart, and Fort Carson.
    Now we are told that a European commander wants to keep two 
BCTs in Europe for up to 2 years longer than the Army 
originally planned. I have discussed this with General Casey 
and Secretary Gates, and I hope that Assistant Secretary 
Calcara will tell us how the plans for moving the infantry 
divisions from Europe to the United States are going.
    On the Air Force side, I look forward to the discussion 
with Assistant Secretary Ferguson concerning the construction 
program there as well. The Air Force's active duty construction 
request is 10 percent below last year's enacted level. The 
Guard component is requesting 56 percent less than last year, 
and the Reserve component 26 percent less.
    I hope we don't lose sight of the fact that our airmen must 
have facilities and family support infrastructure from which to 
work and live that is commensurate with their dedication.
    The Secretary of Defense outlined the four pillars of the 
Air Force's budget strategy--people, readiness, infrastructure, 
and modernization. I look forward to Secretary Ferguson 
discussing these priorities and how the Air Force can achieve 
them while taking such a risk in infrastructure.
    I understand the Air Force intends to downsize its total 
infrastructure budget and physical plant by 20 percent, the 20/
20 by 2020 plan, and I look forward to hearing more about this 
in an era of increased operational tempo.
    Joint basing is another subject I am interested in. As 
everyone knows, the BRAC provides--the former BRAC provided 12 
test joint bases. I hope the Air Force will speak today on how 
it proposes to operate a joint base and handle the real 
property issues on it since, in the present BRAC, the Air Force 
will be the lead in 6 of the 12 joint bases.


                           PREPARED STATEMENT


    I am particularly interested in how the Air Force will 
operate Joint Base San Antonio as it assumes the responsibility 
for Lackland, Randolph, and the Army base Fort Sam Houston.
    So thank you all for coming, and we look forward to your 
testimony.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    Thank you, Mr. Chairman. I appreciate you holding this hearing 
today and am pleased to welcome representatives of the Army and the Air 
Force before the Subcommittee as we examine the President's fiscal year 
2010 budget request for military construction, family housing, and Base 
Realignment and Closure actions for the Department of the Army and the 
Department of the Air Force.
    The panel representing the Department of Defense will appear at our 
next hearing, and we'll discuss Department-Wide MILCON issues at that 
time. But for now I would just like to point out that the overall 
Department of Defense's military construction program, including 
military family housing and BRAC, is only $22.9 billion, an 18 percent 
decrease from the fiscal year 2009 enacted level. The fiscal year 2010 
budget request only contains $7.5 billion for implementing BRAC 
construction actions, a 15 percent decrease from the fiscal year 2009 
enacted level. Plus, I understand there is a request for $1.4 billion 
for overseas contingency operations that will be handled separately. We 
have not received all of the justification material yet and so the 
Committee will decide exactly how we will include this in our bill. I 
hope today's discussions with the Army and Air Force addresses how the 
Department intends to complete all of the BRAC recommended actions 
before the statutory deadline of September 30, 2011. Since the largest 
portion of the BRAC request will go to the Army, I hope Mr. Calcara 
will speak to it today.
    Concerning the fiscal year 2010 budget request before us today, for 
the base budget, I am concerned about the Army's investment in 
infrastructure in the United States. The active duty construction 
request is down 24 percent from last year's enacted level and the Guard 
request is down 46 percent. I am pleased to see that the Reserve 
component has requested an increase of 33 percent. But overall, the 
Army's $4 billion request is a 23 percent decrease. I look forward to 
Mr. Calcara's comments.
    As I said when we were considering the stimulus bill several months 
ago, we should be increasing our construction in the United States, not 
decreasing it. More military construction in the United States will 
enhance the quality of life for our soldiers, sailors and airmen, and 
it will provide much needed jobs for Americans. Our U.S. installations 
at places like Fort Hood, Fort Bliss and Fort Bragg offer large 
maneuver areas, automated ranges, modern simulator training and few 
restrictions on night time flying and training. As a result, soldiers 
trained in the United States and deployed overseas are better prepared 
to fight on Day One of a conflict than those stationed overseas where 
our forces must contend with onerous training restrictions. Today, with 
our modern strategic deployment capabilities and with the use of 
airlift and roll-on, roll-off ships, we can often project power from 
the United States faster than from overseas based units.
    For these reasons, and in order to provide military families with 
greater stability, the Pentagon made the decision several years ago 
that it is better to bring our troops home and station them in the 
United States whenever possible. In order to do that we must be 
committed to providing them with the quality infrastructure these brave 
men and women deserve.
    The Overseas Basing Commission recommendations, the BRAC 
recommendations and a Global Defense Posture that focuses on expanded 
Allied roles and partnerships dictate that it is in our national 
interest to relocate more of our soldiers back to the United States and 
fulfill overseas training and contingency missions by deploying U.S. 
based troops where needed. This is an admirable plan--one our service 
members, their families and our citizens are counting on. Stationing 
our troops in the United States will provide more operational freedom 
of action, better training, and better family support than would be 
possible otherwise. It will produce a stronger, more deployable, and 
more efficient Department of Defense.
    I must also point out that our current military has more citizen-
soldiers than we have seen in a great many years. I am very concerned 
about the overall trend in military construction for our Guard and 
Reserve components. These brave citizen-soldiers are making huge 
contributions to the Global War on Terror and I am keenly interested in 
seeing Guard and Reserve MILCON funding improve. Congress has always 
provided excellent support to the Guard and Reserve, but that should 
not provide an excuse for DOD to shortchange them in the budget 
process.
    I would like to mention again this year the Army's new Modular 
Force Plan which will reorganize units into Brigade Combat Teams 
(BCTs). I understand this transformation is nearly 80 percent complete 
now. The new plan calls for 5 new BCTs to be stationed at Fort Bliss, 
Texas; Fort Stewart, Georgia; and Fort Carson, Colorado. Now I 
understand that the European Commander (EUCOM) wants to keep 2 BCTs in 
Europe for up to 2 years longer than the Army originally planned. I 
have discussed this issue with General Casey and Secretary Gates and I 
hope Assistant Secretary Calcara will tell us how the plans for moving 
the infantry divisions from Europe to the United States are going.
    My State of Texas is the home for a large part of the Army. I am 
very pleased with the operational and infrastructure improvements to 
Fort Bliss, Fort Hood, and Fort Sam Houston, three very important 
installations in our national military preparedness. I am encouraged by 
the Army's emphasis on family support facilities at these and other 
bases around the country. I have said before, we have to take care of 
the soldiers and their families in order to retain these highly trained 
men and women.
    I look forward to the discussion with Assistant Secretary Ferguson 
concerning the Department of the Air Force's construction program as 
well. The Air Force's active duty construction request is 10 percent 
below last year's enacted level. The Guard component is requesting 56 
percent less than last year and the Reserve component is requesting 26 
percent less. I know the Air Force has historically been willing to 
risk infrastructure in order to fund modernization, but I hope we don't 
lose sight of the fact that our airmen must have the facilities and 
family support infrastructure from which to work and live that is 
commensurate with their dedication to our country.
    The Secretary of Defense outlined the four pillars of the Air 
Force's budget strategy as People, Readiness, Infrastructure and 
Modernization, in that order. I look forward to Assistant Secretary 
Ferguson discussing these priorities and how the Air Force can achieve 
them while taking such a risk in infrastructure. I understand the Air 
Force intends to downsize its total infrastructure budget and physical 
plant size by 20 percent, the ``20/20 by 2020'' plan, and I look 
forward to hearing more about how this will work in an era of increased 
operational tempo.
    Again, I am proud to say my home state of Texas has always been 
home to more Air Force personnel than any other State, just as we have 
always been the largest Army state. Starting with Air Force basic 
training at Lackland AFB, technical and NATO pilot training at Sheppard 
AFB, NATO undergraduate pilot training at Laughlin AFB, and instructor 
pilot training at Randolph AFB; and continuing with operational bases 
at Dyess and Goodfellow AFBs; there is quite a lot of infrastructure 
needs in just those bases alone. In addition we are currently prepared 
in San Antonio with the initial secure infrastructure equipment should 
the Air Force announce the home of the new 24th Air Force cyber mission 
will be there.
    Joint Basing is another subject I am very interested in. As 
everyone knows I have been a very strong advocate of fully funding the 
BRAC process, and I know that the 12 test joint bases are a result of 
BRAC recommendations. I hope the Air Force will speak today on how it 
proposes to operate a joint base and handle the real property issues on 
it, since the Air Force will be the lead at 6 of the 12 joint bases. I 
am particularly interested in how the Air Force will operate Joint Base 
San Antonio as it assumes the responsibility for Lackland, Randolph and 
Fort Sam Houston.
    Mr. Chairman, again I want to express my appreciation to you for 
holding this hearing. We have a full slate of issues today and I look 
forward to discussing them as we begin this new appropriations cycle.

    Senator Johnson. Thank you, Senator Hutchison.
    General Boozer, proceed.
    General Boozer. Sir, I am more than prepared to go ahead 
and start with my opening comments.
    Senator Johnson. Secretary Hansen, please proceed.
    General Boozer. Okay. Thank you, sir.

                    STATEMENT OF LOUIS JEROME HANSEN

    Mr. Hansen. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Hutchison, distinguished members of 
the subcommittee, I am Jerry Hansen, the designated senior 
official currently performing the duties of the Assistant 
Secretary of the Army for Installations and Environment. And it 
is my pleasure to appear before you today on behalf of the 
Secretary and the Army to discuss the Army's military 
construction, family housing, base realignment and closure 
budget request for fiscal year 2010.

  QUALITY OF LIFE FOR SOLDIERS AND THEIR FAMILIES AND THE ARMY BUDGET

    First, we thank you all for your continued support to our 
soldiers and families serving our Nation around the world. As 
you know, the Army's strength is its soldiers and the families 
and Army civilians who support them.
    We try, with your support, to ensure the quality of life we 
provide our soldiers and their families is on par with the 
quality of their service. Our budget requests represent minimum 
required levels which, if approved, will enable soldiers and 
their families to receive the facilities, care, and support 
they need to accomplish the monumental tasks we expect of them 
while preserving the all-volunteer force.
    Our Army continues its largest organizational change since 
World War II as we transform to brigade-centric modular force, 
grow our end strength, and restation one-third of the force 
through base realignment and closure and global defense posture 
realignment.
    The Army's fiscal year 2010 military construction and 
overseas contingency operations budget requests include $10.4 
billion for military construction, Army family housing, and 
BRAC, a combined amount.
    As stewards of our Nation's resources, the Army requires 
each military construction project to attain a LEED silver 
rating--LEED being leadership in energy and environment design 
rating of at least silver to reduce total lifecycle cost and 
improve the environment. The Army plans to spend a significant 
sum over the next 5 years to invest in green buildings, to use 
less water, and to achieve 30 percent more energy efficiency in 
the process.
    Fiscal year 2010 is our final year of BRAC construction. 
Full implementation of the BRAC 2005 recommendations will 
enable the Army to become a more capable expeditionary force as 
a member of the joint team, while enhancing the well being of 
our soldiers, civilians, and family members living and working 
and training in our installations.
    The Army's remaining BRAC 2005 construction projects are 
scheduled for award by no later than the first quarter of 
fiscal year 2010. This will enable the major movement of units 
and personnel planned for fiscal years 2010 and 2011, with 
expected completion by the mandated BRAC 2005 deadline.
    The Army remains committed to achieving BRAC 2005 law and 
is on track to do so. With full and timely funding, we 
anticipate no impacts to movement schedules, training, or 
readiness.
    However, we have moved into a period where our construction 
timeline flexibility is extremely limited. Cuts and delays in 
BRAC funding have caused significant difficulties as we have 
implemented BRAC projects in the past, and any significant 
delay in fiscal year 2010 MILCON funding would significantly 
challenge our ability to meet the September 2011 deadline.
    Finally, Mr. Chairman, on April 6, 2009, the Secretary of 
Defense issued guidance to stop the growth of Army BCTs, 
brigade combat teams, at 45 versus 48, as you have mentioned. 
We understand this decision has caused significant concern, and 
we recognize the impact to communities that have made proactive 
investments to accept new units and families.
    At this point, no decisions have been made as to which BCTs 
will be affected. But this decision and its associated impacts 
are being worked with urgency through an expedited Quadrennial 
Defense Review process, and we will work the details very 
closely with Congress as soon as the impacts to the military 
construction projects are known.
    I am accompanied today by Mr. Joe Calcara, the Deputy 
Assistant Secretary of the Army for Installations and Housing; 
Brigadier General Jim Boozer, Director of Operations, 
representing the Assistant Chief of Staff for Installation 
Management and the Installation Management Command; Major 
General Ray Carpenter, the Deputy Director of the Army National 
Guard; and Brigadier General Julia Kraus, Deputy Commander and 
Deputy Chief of the Army Reserve for Management, Resources, and 
Support.

                           PREPARED STATEMENT

    We thank you again for the opportunity to appear before you 
today and for your continued support for America's Army, and we 
look forward to hearing your questions following brief remarks 
by the other panel members.
    I will be followed by General Boozer, sir.
    [The statement follows:]

               Prepared Statement of Louis Jerome Hansen

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, it is a pleasure to 
appear before you to discuss the Army's Military Construction, Family 
Housing, and Base Realignment and Closure budget requests for fiscal 
year 2010. Our requests are crucial to the success of the Army's 
strategic imperatives to Sustain, Prepare, Reset, and Transform the 
force. We appreciate the opportunity to report on them and respond to 
your questions. We would like to start by thanking you for your support 
to our Soldiers and their Families serving our Nation around the world. 
They are and will continue to be the centerpiece of our Army, and their 
ability to perform their missions successfully depends upon the staunch 
support of the Congress.
    The Army's strength is its Soldiers--and the Families and Army 
Civilians who support them. With your continuing support, we will 
assure that the quality of life we afford our Soldiers and Families is 
commensurate with the quality of their service. Our budget requests 
have been vetted to ensure they reflect the minimum requirement to 
maintain the All-Volunteer Force and ensure Soldiers and their Families 
receive the facilities, care, and support they need to accomplish their 
missions.

                                OVERVIEW

         REBALANCING THE FORCE IN AN ERA OF PERSISTENT CONFLICT

    Installations are the home of combat power and a critical component 
of the Nation's force generating and force projecting capability. Your 
Army is working hard to deliver cost-effective, safe, and 
environmentally sound capabilities and capacities to support the 
national defense mission.
    Our Nation has been at war for over 7 years. Our Army continues to 
lead the war efforts in Afghanistan and Iraq, as well as in defense of 
the homeland and in support of civil authorities in responding to 
domestic emergencies. Over time, these operations have expanded in 
scope and duration, stressing our All-Volunteer Force and straining our 
ability to maintain strategic depth. During this period, the Congress 
has responded to the Army's requests for resources, and that commitment 
to our Soldiers, their Families, and Civilians is deeply appreciated. 
Continued timely and predictable funding is critical as the Army 
continues to fight the wars in Iraq and Afghanistan, meet other 
operational demands, sustain our All-Volunteer Force, and prepare for 
future threats to the Nation.
    Our Army continues its largest organizational change since World 
War II, as it transforms to a Brigade centric modular force and grows 
the force to achieve an the Active Component of 547,400, a National 
Guard of 358,200, and an Army Reserve of 206,000 men and women. At the 
same time, we are restationing about one-third of the force through a 
combination of Base Closure and Realignment and Global Defense Posture 
Realignment actions. All of these initiatives have corresponding 
military construction requirements.
    The details of the Army's fiscal year 2010 request follow:

----------------------------------------------------------------------------------------------------------------
                                                                             Authorization of
          Military Construction Appropriation              Authorization      Appropriations     Appropriation
                                                              Request            Request            Request
----------------------------------------------------------------------------------------------------------------
Military Construction Army (MCA).......................     $3,116,350,000     $3,660,779,000     $3,660,779,000
Military Construction Army National Guard (MCNG).......            ( \1\ )        426,491,000        426,491,000
Military Construction Army Reserve (MCAR)..............            ( \1\ )        374,862,000        374,862,000
Army Family Housing Construction (AFHC)................        241,236,000        273,236,000        273,236,000
Army Family Housing Operations (AFHO)..................        523,418,000        523,418,000        523,418,000
BRAC 95 (BCA)..........................................         98,723,000         98,723,000         98,723,000
BRAC 2005 (BCA)........................................      4,081,037,000      4,081,037,000      4,081,037,000
Overseas Contingency Operations........................        923,900,000        923,900,000        923,900,000
                                                        --------------------------------------------------------
      TOTAL............................................      8,984,664,000     10,362,446,000     10,362,446,000
----------------------------------------------------------------------------------------------------------------
\1\ Not available.

    The Army's fiscal year 2010 Military Construction and Overseas 
Contingency Operations budget requests include $10.4 billion for 
Military Construction, Army Family Housing, and BRAC appropriations and 
associated new authorizations.

                        ARMY MODULAR FORCE (AMF)

    The Army continues to reorganize the Active and Reserve components 
into standardized modular organizations, increasing the number of 
Brigade Combat Teams (BCTs) and support Brigades to meet operational 
requirements and create a more deployable, versatile and tailorable 
force. The Army strategy is to use existing facility assets where 
feasible and program projects when not. The fiscal year 2010 request of 
$589 million will provide permanent facilities construction to support 
conversion of existing BCTs to new modern BCTs at Forts Wainwright, 
Carson, Lewis, and Bragg.

                          GROW THE ARMY (GTA)

    On April 6, 2009, the Secretary of Defense issued guidance to stop 
growth of Army BCTs at 45 versus 48. We understand this decision has 
caused some understandable concern in places that expected to receive 
the three additional BCTs, and we recognize the impact this decision 
could have on communities that have made significant investments to 
accept new units. We are working the details with urgency, but at this 
point, no final decisions have been made as to which BCTs will be 
affected. The Army is conducting a thorough analysis with the goal of 
balancing our force mix for the current fight while setting conditions 
to meet the future strategic environment. We are leveraging the ongoing 
Quadrennial Defense Review process and our force mix analysis to 
determine the proper balance. We will keep the Congress advised of our 
progress.
    In the meantime, it is crucial that the Army maintain currently 
planned fiscal year 2009 construction projects and fiscal year 2010 
construction, pending the analysis and decision by Army Senior Leaders, 
and recognizing that the vast majority of the facilities at Army 
installations are legacy systems still requiring modernization or 
replacement. Construction projects play an essential role in supporting 
our end strength growth to 547,400 as well as transforming our 
installations to support organizational changes. The fiscal year 2010 
requirement for BCTs is $404 million. Other Grow the Army facility 
support requirements, such as projects to support the combat support/
combat service support units, training base, quality of life, and 
support to the Army National Guard and Army Reserve growth, in fiscal 
year 2010 total $1.07 billion.

               GLOBAL DEFENSE POSTURE REALIGNMENT (GDPR)

    The Global Defense Posture Realignment initiative ensures Army 
forces are properly positioned worldwide to support out National 
Military Strategy and to support the mission in Afghanistan. GDPR will 
relocate over 41,000 Soldiers and their Families from Europe and Korea 
to the United States by 2013. Over time, it will build a BCT Complex 
and support facilities at White Sands Missile Range, New Mexico, and 
operational, training, and support facilities at Fort Benning, Fort 
Bliss, Fort Riley, Schofield Barracks, and Camp Humphreys. As part of 
the fiscal year 2010 program, the Army requires $252 million to 
construct facilities in Bagram, Afghanistan and a warehouse in Kuwait. 
The total GDPR request is $524 million.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    The Army is requesting $4,081,037,000 for BRAC 2005, which is 
critical to the success of the Army's BRAC 2005 initiatives, and 
$98,723,000 for legacy BRAC to sustain vital, ongoing programs. BRAC 
2005 is carefully integrated with the Defense and Army programs of Grow 
the Army, GDPR, and Army Modular Force. Collectively, these initiatives 
allow the Army to focus its resources on installations that provide the 
best military value, supporting improved responsiveness and readiness 
of units. The elimination of Cold War-era infrastructure and the 
implementation of modern technology to consolidate activities allow the 
Army to better focus on its core warfighting mission. These initiatives 
are a massive undertaking, requiring the synchronization of base 
closures, realignments, military construction and renovation, unit 
activations and deactivations, and the flow of forces to and from 
current global commitments. Results will yield substantial savings over 
time, while positioning forces, logistics activities, and power 
projection platforms to respond efficiently and effectively to the 
needs of the Nation.
    Under BRAC 2005, the Army will close 12 Active Component 
installations, 1 Army Reserve installation, 387 National Guard 
Readiness and Army Reserve Centers, and 8 leased facilities. BRAC 2005 
realigns 53 installations and/or functions and establishes Training 
Centers of Excellence, Joint Bases, a Human Resources Center of 
Excellence, and Joint Technical and Research facilities. To accommodate 
the units relocating from the closing National Guard Readiness and Army 
Reserve Centers, BRAC 2005 creates 125 multi-component Armed Forces 
Reserve Centers and realigns U.S. Army Reserve command and control 
structure.
    The over 1,100 discrete actions required for the Army to 
successfully implement BRAC 2005 are far more extensive than all four 
previous BRAC rounds combined and are expected to create significant 
recurring annual savings. BRAC 2005 will enable the Army to become a 
more capable expeditionary force as a member of the Joint team while 
enhancing the well-being of our Soldiers, Civilians, and Family members 
living, working, and training on our installations.

                   BRAC 2005 IMPLEMENTATION STRATEGY

    All of our BRAC 2005 construction projects are planned to be 
awarded by the first quarter of fiscal year 2010. This will enable the 
major movement of units and personnel in fiscal years 2010 and 2011, 
with expected completion by the mandated BRAC 2005 deadline. The Army 
remains committed to achieving BRAC 2005 Law and is on track do so. 
With full and timely funding, there will be no impacts to movement 
schedules, training, or readiness. Fiscal year 2010 is our fifth and 
final year of BRAC construction. We have moved into a period where our 
construction timeline flexibility is exhausted. We cannot overstate the 
difficulties that cuts or delays in BRAC funding pose to the Army as we 
implement BRAC construction projects. If the Army program is not fully 
funded by October 2009, we will be significantly challenged to execute 
BRAC as intended.

                   BRAC 2005 FISCAL YEAR 2010 BUDGET

    The Army's fiscal year 2010 budget request will continue to fund 
both BRAC and GDPR actions necessary to comply with BRAC 2005 Law. The 
Army plans to award and begin construction of 80 military construction 
projects, plus planning and design for fiscal year 2010 projects. This 
is estimated to cost $2.5 billion and includes five additional GDPR 
projects, 37 Army National Guard and Army Reserve projects, and an 
additional 38 Active Component projects.
    The BRAC budget request will also fund furnishings for BRAC 
projects awarded in fiscal year 2006, 2007, 2008, and 2009 as the 
buildings reach completion and occupancy. The request also funds 
movement of personnel, ammunition, and equipment associated with BRAC 
Commission Recommendations.
    In fiscal year 2010, the Army will continue environmental closure 
and cleanup actions at BRAC properties. These activities will continue 
efforts previously ongoing under the Army Installation restoration 
program and will ultimately support future property transfer actions. 
The budget request for environmental programs is $147.7 million, which 
includes munitions and explosives of concern and hazardous and toxic 
waste restoration activities.

                               PRIOR BRAC

    Since Congress established the first Defense Base Closure and 
Realignment Commission in 1988 and then authorized the subsequent 
rounds in 1990, DOD has successfully executed four rounds of base 
closures to reduce and align the military's infrastructure to the 
current security environment and force structure. As a result, the Army 
estimates approximately $12.6 billion in savings through 2008--nearly 
$1 billion in recurring, annual savings from prior BRAC rounds.
    The Army is requesting $98.7 million in fiscal year 2010 for prior 
BRAC rounds ($5.3 million to fund caretaking operations and program 
management of remaining properties and $93.4 million for environmental 
restoration) to address environmental restoration efforts at 147 sites 
at 14 prior BRAC installations. To date, the Army has spent $2.95 
billion on the BRAC environmental program for installations impacted by 
the previous four BRAC rounds. We disposed of 181,345 acres (86 percent 
of the total acreage disposal requirement of 209,834 acres), with 
28,489 acres remaining.

         FISCAL YEAR 2010 OVERSEAS CONTINGENCY OPERATIONS (OCO)

    This request supports the National Strategy for OCO. The request 
funds projects critical to the support of deployed war fighters, 
operational requirements for airfields, operational facilities, 
supplies, troop housing and infrastructure to ensure safe and efficient 
military operations in Afghanistan. A total of 74 projects that will 
fulfill the Department's immediate mission needs and urgent 
infrastructure requirements in theater are planned for a total of $828 
million.

                            ARMY INITIATIVES

    To improve the Army's facilities posture, we have undertaken 
specific initiatives or budget strategies to focus our resources on the 
most important areas--Range and Training Lands, Barracks, Family 
Housing, and Warrior in Transition Complexes.
    Range and Training Lands.--Ranges and training lands enable our 
Army to train and develop its full capabilities to ensure our Soldiers 
are fully prepared for the challenges they will face. Our Army Range 
and Training Land Strategy supports Army transformation and the Army's 
Sustainable Range Program. The Strategy identifies priorities for 
installations requiring resources to modernize ranges, mitigate 
encroachment, and acquire training land. The fiscal year 2010 request 
supports 25 projects, $178 million for Active Component training 
ranges.
    Barracks.--Providing safe, quality housing is a crucial commitment 
the Army has made to all of our Soldiers. We owe single Soldiers the 
same quality of housing that we provide married Soldiers. Modern 
barracks are shown to significantly increase morale, which positively 
impacts readiness and quality of life. The importance of providing 
quality housing for single Soldiers is paramount to success on the 
battlefield. The Army is in the 17th year of modernizing barracks to 
provide about 148,000 single enlisted permanent party Soldiers with 
quality living environments. Because of increased authorized strength, 
the requirements for barracks have increased in several locations, and 
for fiscal year 2010, a total of $711.5 million will be invested in 
3,592 new permanent party barracks spaces that will meet DOD's ``1+1'' 
or equivalent standard. These units provide two-Soldier suites, 
increased personal privacy, larger rooms with walk-in closets, new 
furnishings, adequate parking, landscaping, and unit administrative 
offices separated from the barracks. We are on track to fully fund this 
program by fiscal year 2013. The last inadequate permanent party spaces 
will be removed after the new barracks are occupied in fiscal year 
2015. For trainee barracks, the Army is requesting $535.9 million to 
build or upgrade 2,278 new spaces to standard. We are requesting funds 
to keep this program on schedule so we can eliminate all inadequate 
trainee barracks spaces, finishing funding with fiscal year 2015 and 
occupying the barracks in fiscal year 2017.
    Family Housing.--This year's budget continues our significant 
investment in our Soldiers and their Families by supporting our goal to 
continue funding to eliminate remaining inadequate housing and sustain 
housing at enduring overseas installations. The U.S. inadequate 
inventory has been funded to be eliminated by the end of fiscal year 
2007 through privatization, conventional military construction, 
demolition, divestiture of uneconomical or excess units, and reliance 
on off-post housing. For Families living off post, the budget for 
military personnel maintains the Basic Allowance for Housing that 
eliminates out-of-pocket expenses.
    Warrior In Transition.--The Army $1 billion budget for its Warrior 
in Transition (WT) Program funds military construction to facilitate 
command and control, primary care, and case management to establish a 
healing environment that promotes the timely return to the force or 
transition to civilian life. The fiscal year 2009 Overseas Contingency 
Operations requests $425 million in funding. The fiscal year 2009 
American Recovery and Reinvestment Act (ARRA) provided $100 million for 
two complexes and the fiscal year 2010 budget request will provide 13 
complexes for $503.5 million.
    Overseas Construction.--Included in this budget request is $437 
million in support of high-priority overseas projects. In Germany, we 
are requesting funds for barracks at Ansbach and Kleber Kaserne. In 
Korea, we are requesting funds to further our relocation of forces on 
the peninsula. This action is consistent with the Land Partnership Plan 
agreements entered into by the United States and Republic of Korea 
Ministry of Defense. Two vehicle maintenance shops and a Fire Station 
are included. Our request for funds in Italy continues construction for 
a BCT. We are also including Training Aids Facilities in Japan at Camp 
Zama and Okinawa. Additionally, approximately $678 million of our 
fiscal year 2009 Overseas Contingency Operations request will support 
military construction projects in Afghanistan for troop housing, 
airfield and operational facilities, infrastructure and utility 
systems, fuel handling and storage, and roads.
    Other Support Programs.--The fiscal year 2010 budget includes $153 
million for planning and design. As executive agent, the Army also 
provides oversight of design and construction for projects funded by 
host nations. The fiscal year 2010 budget requests $25 million for 
oversight of host nation funded construction for all Services in Japan, 
Korea, and Europe.
    Incremental Funding.--We are requesting the third increment of 
funding, $55.4 million, for the previously approved, incrementally 
funded, SOUTHCOM Headquarters at Miami-Doral, Florida. In addition, we 
are requesting the fourth and final increment of funding, $102 million, 
for the Brigade Complex at Fort Lewis, Washington. The budget also 
includes $23.5 million for a Brigade Complex-Operations support 
facility and $22.5 million for a Brigade Complex-Barracks/Community, 
both projects at Dal Molin, Italy. Finally, we are requesting the 
second increments for the Brigade Complexes at Fort Carson $60 million 
and Fort Stewart $80 million.
    The budget request also contains $23 million for unspecified minor 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

               MILITARY CONSTRUCTION, ARMY NATIONAL GUARD

    The Army National Guard's fiscal year 2010 Military Construction 
request for $426,491,000 (for appropriation and authorization of 
appropriations) is focused on Transformation/Army Modular Force, 
Mission and Training, Grow the Army, planning and design, and 
unspecified minor military construction
    Transformation.--In fiscal year 2010, the Army National Guard is 
requesting $158.2 million for six projects in support of our modern 
missions. There are three aviation projects to provide facilities for 
modernized aircraft and changed unit structure. Also in support of the 
Modular Force initiative, we are asking for two Readiness Centers and 
one maintenance facility.
    Mission and Training.--Our budget request also includes $154 
million for 10 projects, which will support the preparation of our 
forces. These funds will provide the facilities our Soldiers require as 
they train, mobilize, and deploy. Included are two training facilities, 
six Range projects, and two Readiness/Armed Forces Reserve Centers.
    Grow the Army.--Under the category of Grow the Army, we are 
requesting $80 million for five Readiness Centers to improve the Army 
National Guard's ability to deal with the continued high levels of 
deployment.
    Other Support Programs.--The fiscal year 2010 Army National Guard 
budget also contains $24 million for planning and design of future 
projects and $10.3 million for unspecified minor military construction 
to address unforeseen critical needs or emergent mission requirements 
that cannot wait for the normal programming cycle.

                  MILITARY CONSTRUCTION, ARMY RESERVE

    The Army Reserve fiscal year 2010 Military Construction request for 
$374,862,000 (for appropriation and authorization of appropriations) is 
for Preparation, Transformation, other support, and unspecified 
programs.
    Mission and Training Projects. In fiscal year 2010, the Army 
Reserve will invest $45 million to prepare our Soldiers for success in 
current operations. Included in the mission and training projects is an 
Armed Forces Reserve Center and a Combined Arms Collective Training 
facility, which will be available for joint use by all Army components 
and military services.
    Grow The Army Projects.--The Army Reserve transformation from a 
strategic reserve to an operational force includes converting 16,000 
authorizations from generating force structure to operational force 
structure from fiscal years 2009 through 2013. In fiscal year 2010, the 
Army Reserve will construct 19 Reserve Operations Complexes in eleven 
states and the Commonwealth of Puerto Rico, with an investment of $304 
million to support the transformation. These projects will provide 
operations, maintenance, and storage facilities for over 6,000 Soldiers 
in 56 newly activating combat support and combat service support units 
and detachments.
    Other Unspecified Programs.--The fiscal year 2010 Army Reserve 
budget request includes $22.3 million for planning and design for 
future year projects and $3.6 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

                ARMY FAMILY HOUSING CONSTRUCTION (AFHC)

    The Army's fiscal year 2010 Family housing construction request is 
$273,236,000 for authorization, authorization of appropriation, and 
appropriation.
    The fiscal year 2010 new construction program uses traditional 
military construction to provide 38 new houses for Families with an $18 
million replacement project at Baumholder, Germany. The Army also 
requests $32 million to fund the final increment for three projects at 
Wiesbaden, Germany, to finish replacement housing that was fully 
authorized in fiscal year 2009. These projects will result in 
completing 250 homes for Army Families.
    The Construction Improvements Program is an integral part of our 
Family housing revitalization and privatization programs. In fiscal 
year 2010, we are requesting $161.4 million to increase scope of these 
existing privatization projects: 334 homes at Fort Knox, Kentucky; 176 
homes at Fort Wainwright, Alaska; 144 homes at Fort Polk, Louisiana; 90 
homes at Fort Irwin, California; and, 78 homes at Fort Sill, Oklahoma. 
The Improvements program also provides $11.9 million for equity 
contributions for 11 homes at Fort Bragg, North Carolina, and 8 homes 
at Fort Eustis, Virginia, that were required due to Base Realignment 
and Closure. Also, the fiscal year 2010 request supports $46 million 
for direct equity investment in support of the privatization of 1,242 
homes at Fort Richardson, Alaska, as part of the Joint Basing effort 
with Elmendorf Air Force Base.
    In fiscal year 2010, we are also requesting $3.9 million for 
planning and design for final design of fiscal year 2010 and 2011 
Family housing construction projects, as well as for housing studies 
and updating standards and criteria.
    Privatization.--Residential Communities Initiative (RCI), the 
Army's housing privatization program, continues to provide quality 
housing that Soldiers and their Families can proudly call home. The 
Army is leveraging appropriated funds and existing housing by engaging 
in 50-year partnerships with nationally recognized private real estate 
development, property management, and home builder firms to construct, 
renovate, repair, maintain, and operate housing communities.
    The RCI program will include 45 locations, with a projected end 
state of almost 88,000 homes--98 percent of the on-post Family housing 
inventory in the United States. At the end of fiscal year 2009, the 
Army will have privatized 44 locations, with an end state of over 
85,000 homes. Initial construction and renovation at these 44 
installations is estimated at $12 billion over a three to ten year 
development period, of which the Army will contribute about $2.0 
billion. Although most projects are in the early phases of their 
initial development, since 1999 through March 2009, our partners have 
constructed 18,769 new homes, and renovated 13,697 homes.

                 ARMY FAMILY HOUSING OPERATIONS (AFHO)

    The Army's fiscal year 2010 Family Housing Operations request is 
$523,418,000 (for appropriation and authorization of appropriations). 
This account provides for annual operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased Family housing, 
demolition of surplus or uneconomical housing, and funds supporting 
management of the Military Housing Privatization Initiative. This 
request will support almost 17,000 Army-owned homes, both at home and 
in foreign areas. More than 9,000 residences will be leased and more 
than 80,000 privatized homes will be managed.
    Operations ($88.4 million).--The operations account includes four 
sub-accounts: management, services, furnishings, and a small 
miscellaneous account. All operations sub-accounts are considered 
``must pay accounts'' based on actual bills that must be paid to manage 
and operate Family housing.
    Utilities ($81.6 million).--The utilities account includes the 
costs of delivering heat, air conditioning, electricity, water, and 
wastewater support for Family housing units. The overall size of the 
utilities account is decreasing with the reduction in supported 
inventory.
    Maintenance and Repair ($115.9 million). The maintenance and repair 
account supports annual recurring projects to maintain and revitalize 
Family housing real property assets. Since most Family housing 
operational expenses are fixed, maintenance and repair is the account 
most affected by budget changes. Funding reductions result in slippage 
of maintenance projects that adversely impact Soldier and Family 
quality of life.
    Leasing ($205.7 million).--The leasing program provides another way 
of adequately housing our military Families. The fiscal year 2010 
budget includes funding for 9,036 housing units, including project 
requirements for 1,080 existing Section 2835 (``build-to-lease''--
formerly known as 801 leases), 1,828 temporary domestic leases in the 
U.S., and 6,128 leased Family housing units in foreign areas.
    Privatization ($31.8 million).--The privatization account provides 
operating funds for implementation and oversight of privatized military 
Family housing in the RCI program. RCI costs include selection of 
private sector partners, preparation of environmental studies and real 
estate surveys, and contracting of consultants. These funds support the 
preparation and execution of partnership agreements and development 
plans, and oversight to monitor compliance and performance of the 
privatized housing portfolio.

                     HOMEOWNERS ASSISTANCE PROGRAM

    The Army is the DOD Executive Agent for the Homeowners Assistance 
Program (HAP); that is, the Army requests in its budget the funds 
needed by the DOD-wide program supporting all of the Services. In 
normal times, this program assists eligible military and civilian 
employee homeowners by providing some financial relief when they are 
not able to sell their homes under reasonable terms and conditions 
because of DOD announced closures, realignments, or reduction in 
operations when this action adversely affects the real estate market.
    The 2009 ARRA expanded HAP to provide benefits to: (1) seriously 
wounded Warriors in Transition (to include Coast Guard and DOD civilian 
employees) who relocate for medical treatment or medical retirement, 
from September 11, 2001 (No expiration date); (2) surviving spouses of 
fallen warriors and DOD and Coast Guard civilians killed while deployed 
in support of the Armed Forces, from September 11, 2001 (No expiration 
date); (3) BRAC 2005 impacted personnel assigned to relocating or 
closing organizations or installations, without proof that the DOD 
announcement caused markets to decline (Expires 2012, or an earlier 
date designated by the Secretary); (4) Service members with permanent 
change of station orders required to relocate during the home mortgage 
crisis (Expires 2012, or an earlier date designated by the Secretary). 
The ARRA expanded HAP is funded at $555 million.
    Excluding the ARRA expanded HAP, the fiscal year 2010 budget 
requests authorization of appropriations in the amount of $28.71 
million. Total program estimate for fiscal year 2010, excluding ARRA 
expansion, is $41.98M and will be funded with requested budget 
authority, revenue from sales of acquired properties, and prior year 
unobligated balances.

                       OPERATION AND MAINTENANCE

    The Army's fiscal year 2010 Operation and Maintenance budget 
includes $2.85 billion in funding for Sustainment, Restoration, and 
Modernization (S/RM) and $8.61 billion in funding for Base Operations 
Support (BOS). The S/RM and BOS accounts are inextricably linked with 
our military construction programs to successfully support our 
installations. The Army has centralized the management of its 
installations assets under the Installation Management Command to best 
utilize this funding. Centralized barracks management, also known as 
the First Sergeant's Barracks Initiative (FSBI), will standardize 
barracks management Army-wide, enhance single Soldier quality of life, 
reduce overall un-programmed single Soldier Basic Allowance for 
Housing, maximize barracks utilization, and reallocate Soldier time 
away from non-war fighting tasks. The FSBI provides top-quality 
oversight and management of daily barracks operations. The FSBI review 
committee completed review and validation of funding requirements for 
12 Installations. Implementing FSBI at these installations brings in 
about 55 percent of the Army barracks inventory.

                                SUMMARY

    Mr. Chairman, our fiscal year 2010 Military Construction and BRAC 
budget requests are balanced programs that support our Soldiers and 
their Families, Overseas Contingency Operations, Army transformation, 
readiness, and DOD installation strategy goals. We are proud to present 
this budget for your consideration because of what this budget will 
provide for our Army:
    Military Construction:
  --26 new Training Ranges/Facilities
  --$11 billion invested in Soldier/Family Readiness
  --$1.8 billion to Grow the Army
  --$524 million support the mission in Afghanistan
  --$828 million funds projects for Overseas Contingency Operations 
        mission in Afghanistan
  --Over 3,300 Soldiers training in 16 new or improved Readiness 
        Centers and Armed Forces Reserve Centers
  --20 New Army Reserve Operations Complexes
  --6,054 Soldiers get new Reserve Operations Complexes
  --Over 7,800 Soldiers training in nine new or improved Readiness 
        Centers and Armed Forces Reserve Centers
  --Six Ranges serving 166,000 men and women in our Armed Forces
    Base Realignment and Closure:
  --Statutory compliance by 2011 for BRAC
  --80 Military Construction projects
  --Planning & Design for fiscal year 2010--2010 Projects
  --Remaining NEPA for BRAC 2005 actions
  --Continued Environmental Restoration of 31,844 acres
    Base Operations Support:
  --Goal is to meet essential needs for all BOS programs: Base 
        Operations, Family, Environmental Quality, Force Protection, 
        Base Communications, and Audio/Visual.
    Sustainment/Restoration and Modernization:
  --Funds Sustainment at 90 percent of the OSD Facility Sustainment 
        model requirement.
    Our long-term strategies for installations will be accomplished 
through sustained and balanced funding, and with your support, we will 
continue to improve Soldier and Family quality of life, while remaining 
focused on Army and Defense transformation goals.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for America's 
Army.

                  STATEMENT OF GENERAL JAMES C. BOOZER

    Senator Johnson. Thank you.
    General Boozer.
    General Boozer. Thank you, Mr. Chairman, Senator Hutchison, 
and distinguished members of the subcommittee.
    On behalf of the Army's senior leaders and the more than 1 
million soldiers that comprise our Army, I want to thank you 
for the opportunity to discuss the Army's fiscal year 2010 
military construction budget request. It is truly an honor to 
be here with you today to do that.
    I would like to extend our gratitude for this committee's 
support for our soldiers and programs over the years. Our brave 
men and women are performing their mission superbly, thanks to 
your continued support.
    Our $10.4 billion military construction request is crucial 
to the success of the Army's strategic imperatives to sustain, 
prepare, reset, and transform the force. Military construction 
plays a key role in each of these imperatives and is a key 
enabler in restoring balance and strategic flexibility in your 
Army.
    We are on track to achieve balance but need your continued 
support so we can sustain soldiers and their families, prepare 
soldiers for success in the current conflict, reset them when 
they return from combat, and transform them for an uncertain 
future.
    To do this, we must first sustain our soldiers and families 
by investing in quality housing and support programs, such as 
the Soldier-Family Action Plan. We have programs in place that 
will improve soldier and family programs and services, quality 
of healthcare, excellence in schools, youth services, and 
childcare, and expand education and employment opportunities 
for family members.
    We are committed to continuing to improve soldier and 
family quality of life to a level commensurate with their level 
of service and sacrifice to the Nation.
    We must also prepare our soldiers for success in the 
current contingency conflicts. To help achieve this goal, our 
fiscal year 2010 request includes $178 million for 25 new range 
projects, as well as $539 million for training barracks and 
$1.5 billion for Grow the Army military construction projects.
    The third imperative, reset, is about returning soldiers 
and equipment to conditions where they can unwind to prepare 
for future missions. The Army Medical Action Plan is one such 
program that incorporates care and services for wounded 
warriors and their families and provides world-class care to 
our warriors in transition for reintegration into the force or 
back to civilian life. We thank you for your support for this 
vital program as well.
    As part of the fourth imperative, transform, the creation 
of the Installation Management Command in October 2006 
continues our progress in centralized installation management 
and fosters more consistent, cost-effective, and accountable 
delivery of installation funding and services. We are well on 
our way to completing the largest transformation of the Army 
since World War II, and it is all being accomplished while in a 
conflict and with your committed support.
    To improve efficiency and effectiveness, we are reshaping 
installations through BRAC and global defense posture 
realignment while simultaneously converting to a modular force, 
growing the Army, and converting the Army Reserve components to 
an operational force. Our military construction request 
supports this intricately woven, tightly synchronized 
stationing plan.

                     MILITARY CONSTRUCTION PROJECTS

    I would like to reiterate Mr. Hansen's comments that we 
must receive full and timely BRAC funding in order to achieve 
the mandates of BRAC 2005 law. A delay in funding our $4 
billion BRAC request beyond October 2009 could place making the 
BRAC mandated September 15, 2011 deadline in jeopardy. Our 
flexibility over the years executing this program are all but 
gone.
    Finally, as Mr. Hansen has already stated, the Secretary of 
Defense's guidance to stop growth of Army BCTs at 45 versus 48 
is being thoroughly, deliberately, and expeditiously analyzed 
by the senior Army leadership. We will work this closely with 
this committee and your staffs. In fact, we meet with your 
staffs next week.
    The fiscal year 2009 and 2010 construction projects play an 
essential role in supporting our end strength of 547,000, as 
well as transforming our installations and facilities to 
support our modular design units. These ongoing investments 
will ensure soldiers and families have the modern facilities 
they deserve.
    In closing, our request for military construction, BRAC, 
family housing, and overseas contingency operations plays a 
critical role in allowing us to put the Army back in balance to 
sustain the current fight and confront the future.
    We thank Congress for its unwavering support of the Army's 
military construction programs over the years and ask for your 
continued support. Our goal is to have premier installations 
across the globe. Our soldiers and families deserve nothing 
less.
    Thank you. It is an absolute honor to be here with you 
today, and I look forward to your questions.

               STATEMENT OF GENERAL RAYMOND W. CARPENTER

    Senator Johnson. Thank you.
    Next is General Carpenter, a fellow South Dakotan. Please 
proceed.
    General Carpenter. Thank you, Mr. Chairman. It is great to 
see a fellow South Dakotan.
    And again, thank you for the opportunity to appear before 
you today to discuss the Army National Guard military 
construction budget request for fiscal year 2010.
    First, I must say thanks to this committee for its strong 
support of the National Guard in the past. Last year, the 
budget request for fiscal year 2009 asked for $539 million in 
Army National Guard military construction, which appropriated 
for 29 projects. The Congress provided that and more, actually 
appropriating for us an additional $197 million for 25 more 
projects. And we are profoundly grateful to this committee for 
that added support last year.
    Today, you have before you a budget request for fiscal year 
2010, which asks for $426 million to fund 21 projects in 18 
States. Those projects consist of readiness centers, ranges, 
Army aviation, fort facilities, training institutes, and 
maintenance shops. And we ask you to provide full funding for 
that request.

               ARMY NATIONAL GUARD MILITARY CONSTRUCTION

    The average age of Army National Guard Readiness Centers 
across our Nation is 41 years old, and 24 percent of those are 
over 70 years old. So the need for your continuing strong 
support is vital to the continued success of our Army National 
Guard.
    Moreover, in this time of economic trouble for our Nation, 
I would point out that the National Guard military construction 
funding is a uniquely effective means of stimulating local 
economies. Army National Guard facilities are not concentrated 
on large installations but are widely dispersed across America 
in more than 3,000 locations and communities.
    Finally, I would note that the Army National Guard 
Readiness Centers are very important parts of the community in 
which they are located and provide a day-to-day connection 
between the United States military and hometown America.
    Mr. Chairman, the Army National Guard is proud of its 
history, accomplishments, and service to our Nation. For the 
past 2 years, we have averaged in excess of 50,000 soldiers 
mobilized at any given time. And today, we are at 60,000 
soldiers mobilized, and those great citizen soldiers are a part 
of our Army National Guard and are on point for our Nation as 
we speak.
    The 21 projects that we have submitted are about people and 
readiness--training our soldiers, providing for their well 
being, and maintaining and sustaining our facilities and 
equipment to be ready for our Nation's call for State and local 
emergencies.
    I am grateful to be here today to represent those 366,000 
citizen soldiers, and I welcome your questions.
    I will be followed by General Kraus.

                  STATEMENT OF GENERAL JULIA A. KRAUS

    Senator Johnson. General Kraus.
    Chairman Johnson, Senator Hutchinson, distinguished members 
of the subcommittee; thank you for the invitation to appear 
before you today to discuss Army Reserve military construction. 
It is an honor to testify before you on behalf of Army Reserve 
soldiers, family members and civilians.
    In the midst of two ongoing wars and transformation efforts 
to grow, restation and modernize the Army, the Army Reserve is 
building new capability. In fiscal year 2010, we are requesting 
twenty one MCAR projects and will be involved in thirty five 
base realignment and closure (BRAC) projects.
    The Army Reserve fiscal year 2010 military construction 
request of $374,862,000 (for appropriation and authorization of 
appropriations) is for mission and training, grow the Army, 
other support, and unspecified programs.

                     MISSION AND TRAINING PROJECTS

    In fiscal year 2010, the Army Reserve will invest $45 
million to prepare our soldiers for success in current 
operations. Included in the mission and training projects is an 
Armed Forces Reserve Center and a Combined Arms Collective 
Training facility, which will be available for joint use by all 
Army components and military services.

                         GROW THE ARMY PROJECTS

    The fiscal year 2010 Army Reserve military construction 
request represents the second year of a 3 year plan to 
implement the transformation from a strategic reserve to an 
operational force. Nineteen Reserve operations complexes in 11 
States and the Commonwealth of Puerto Rico will be constructed, 
with an investment of $304 million, to support the 
transformation. This $304 million is 81 percent of the MILCON 
budget request. These projects will provide operations, 
maintenance, and storage facilities for over 6,000 Soldiers in 
56 newly activating combat service and combat service Support 
units and detachments.
    While the pace of construction is hectic and the resources 
committed are remarkable the Army Reserve has significant 
facility and infrastructure needs. We are working aggressively 
to address all our facilities and infrastructure requirements 
to ensure soldiers receive the best training and support 
possible and that we adequately support and maintain on-hand 
and inbound modular force equipment to ensure unit readiness.
    Thank you for your continued support for the men and women 
who serve in your Army Reserve and for the opportunity to brief 
the subcommittee on the state of Army Reserve military 
construction projects.
    This concludes my statement and I look forward to your 
questions. Thank you.

       HOMEOWNERS' ASSISTANCE PROGRAM (HAP) FOR MILITARY FAMILIES

    Senator Johnson. Thank you.
    Mr. Hansen, I am very interested in the Homeowners 
Assistance Program, or HAP. As you know, I added $555 million 
to the stimulus bill to extend homeowners' assistance to 
military families caught up in the mortgage crisis.
    Can you tell me about the status of implementing the 
expanded program, and what does the Army estimate that the 
total requirement will be to ensure that this assistance will 
be available to all qualified Army families?
    Mr. Calcara. Mr. Chairman, I will take that question. And I 
would like to thank you first for your leadership on that 
important program. I know you worked very hard, your staff, 
along with Ms. Evans, to help us get that in the ARRA program, 
and it is going to make a big difference for a lot of all 
members of the armed forces--not just the Army, but the Navy, 
the Marine Corps, the Air Force, and members of the Coast Guard 
as well.
    The Army is the executive agent for it, as you know. When 
we came in with plans to expand that authority, which goes back 
40 years, we had to scale the program to work within available 
resources. Over the last several weeks, we have had a cross-
functional team comprised of representatives of all the 
services shaping the program's entitlement structure. And we 
have finished that process and have drafted the final policy.
    Where we are now is because some of the benefits will be 
paid to nonmilitary members, such as surviving spouses and 
people who have retired, we need to get into the OMB rulemaking 
process. We are implementing that as we speak. We have had a 
meeting on it, I think, this week. We expect to get through 
rulemaking and start paying benefits in the latter part of 
June.
    We anticipate a tremendous response to this program and a 
lot of success, with at least 10,000 to 12,000 claims 
forecasted in the immediate future.
    Again, I thank you for your leadership on helping us get 
that program in place.

            ARMY NATIONAL GUARD MILITARY CONSTRUCTION BUDGET

    Senator Johnson. General Carpenter, the South Dakota Guard 
is in the process of constructing a joint forces headquarters 
in Rapid City. The Guard leadership in South Dakota has 
indicated a need for an additional $7.9 million to complete the 
project in this fiscal year.
    Could you give me an update on this project and the 
required funding? And did you need additional funding for 
fiscal year 2010?
    General Carpenter. Mr. Chairman, as you are well aware, the 
project was validated and initially funded in the military 
construction budget for the Army National Guard. We do have an 
additional request for $7 million based upon some additional 
requirements to that joint force headquarters project, which 
includes some additional units and some additional requirements 
that were not in the original 1390/91.
    We have reviewed that requirement and that request, and we 
found them to be valid and a requirement in terms of making 
that a complete project. So we expect that there would be some 
sort of funding to accommodate that.
    Senator Johnson. Mr. Hansen, over the past several years, 
Congress has provided funding to support the Army's Grow the 
Force initiative, including 48 brigade combat teams, or BCTs. 
Last month, the Secretary of Defense announced that the number 
of BCTs were to be stopped at 45.
    What impact will this have on the Army's military 
construction program, and will it have any impact in fiscal 
year 2010? What is the status of the Army's stationing plan in 
Europe, and when do you expect the Secretary to make a final 
decision on how many brigades will remain in Europe?
    Mr. Hansen. Yes, sir. With your permission, sir, General 
Boozer is geared to answer that one.
    General Boozer. Yes, thank you, Mr. Chairman.
    So, as you indicated, we all are aware of the Secretary of 
Defense's guidance on April 6 to stop growth of Army BCTs at 45 
versus 48, and we will reach the 45th brigade combat team in 
fiscal year 2010 when we stand up, activate 2d Brigade 1st 
Armored Division at Fort Bliss, Texas. That will get us to the 
45th brigade combat team.
    The Army's position concerning the Secretary's guidance is 
we currently want to maintain our construction projects for 
2009 and 2010 because it is both projects in 2009 and 2010 that 
construct facilities for those six Grow the Army brigades at 
Fort Carson, Fort Stewart, and Fort Bliss.
    As Mr. Hansen indicated in his opening comments, we are 
currently going through a very, very detailed analysis, a very 
deliberate analysis of the impacts and courses of action to how 
we would stop at 45 versus 48.
    We also know that in fiscal years 2012 and fiscal years 
2013, Mr. Chairman, as you mentioned, we are to bring those two 
brigades back from Germany--one in fiscal year 2012 to Fort 
Bliss, Texas, and one in fiscal year 2013 to White Sands 
Missile Range. Those two brigades, we are going to get informed 
by this accelerated Quadrennial Defense Review that is 
currently ongoing.
    The construction projects that we have planned in 2009 and 
fiscal year 2010 are critical, essential in supporting us in 
getting to our--and we have reached our end strength of 547,400 
soldiers that we are slightly above and have to bring that down 
to get back to our TAA.
    So these construction projects are critical in, one, 
providing facilities for our end strength. And so, our intent 
is to continue with those programs, maintain those programs, 
get informed by the QDR, get informed by the courses of action 
that we are working through now, and work this through.
    So we would ask for your patience and hope to be able to do 
this as quickly as possible. I wish I could give you a time. I 
know the Chief of Staff of the Army was engaged with Mr. 
Edwards in the HAC hearings, MILCON hearings last week. 
Certainly, we would have to have something done before the 
budget goes to the September conferences at the latest.

                            ARMY BCI GROWTH

    Senator Johnson. Thank you, General.
    Senator Hutchison.
    Senator Hutchison. I am not sure that I totally understood 
your answer, and I wanted to follow up on Senator Johnson's 
question. What effect will the stopping at 45 have on the 
statement of the commander at EUCOM--he is recommending that 
two of the brigades stay in Germany for 2 years longer.
    Are you saying that will not impact, that decision hasn't 
been made or that the stopping at 45 does not necessarily mean 
that the decision has been made that some would stay, that two 
would stay in Europe? If you could clarify for me?
    General Boozer. Yes, ma'am. And I am sorry for the 
confusion.
    The Army's position, one, is those two brigades will 
return, as I indicated, fiscal year 2012 and fiscal year 2013.
    Senator Hutchison. So the two----
    General Boozer. They are almost two separate issues.
    Senator Hutchison. Okay.
    General Boozer. The decision for the 45 is completely 
independent of the two brigades coming back from Germany. That 
issue, it will be reviewed during the QDR.
    Senator Hutchison. I understand. That is exactly the 
clarification I was looking for.
    So you are moving on schedule, as long as the MILCON stays 
on schedule, to move those troops as originally determined 
earlier in BRAC?
    General Boozer. Yes, ma'am.
    Senator Hutchison. Okay. And let me ask you also in the 
general BRAC arena if the budget that you have this year, plus 
last year, if you feel that you are on schedule for having all 
of the BRAC construction done within the September 2011 
timeframe?
    General Boozer. Yes, ma'am. I believe we are on schedule. 
We are on track. We are essentially halfway through the 
program. Over 180 projects of 326 are either complete or being 
constructed. That leaves us 146 projects remaining to execute.
    And our intent, with timely funding, is to advertise for 
projects during the fourth quarter of this year so that we can 
award them right at the start of first quarter 2010. But BRAC 
timeline we are on track now.
    Senator Hutchison. And do you feel like more money would 
help move anything further toward that deadline, or are you 
comfortable that we are on time and on budget?
    General Boozer. No, ma'am. I don't think additional funds 
would help at this point. It all has to do with capacity, and 
so I think we have maxed out capacity and maxed out funding for 
BRAC.
    Senator Hutchison. Thank you.

             EXPANSION OF RANGERS IN PINON CANYON, COLORADO

    Pinon Canyon, Mr. Hansen, as you know the Army has been 
trying to expand the ranges at Pinon Canyon, Colorado, for at 
least 2, maybe 3 years now but has been held up by 
environmental issues. And last year, this committee prohibited 
the Army from even advancing the environmental impact study to 
expand the ranges there. Actually, it was the full Senate that 
enacted that.
    So what is the option that the Army is looking at? Are you 
still going to push Pinon Canyon, or are you looking to expand 
ranges at other installations, seeing that the likelihood of 
expanding at Pinon Canyon is probably pretty slim?
    Mr. Hansen. Thank you, ma'am.
    The Army does not have the luxury of excess or surplus 
maneuver training land capacity at any of its installations, as 
you know. And we have legitimate needs for expanded training 
land to support the concentration of units in the United 
States, modular conversion to BCTs, training for operating 
environment, and continued environmental challenges to the 
Army's ability to fully access the land that it does currently 
own.
    And we do hope to continue to work in a cooperative fashion 
with the State of Colorado and local landowners, and it is 
hopeful we can arrive on a way ahead that meets the Army's need 
and also works for the landowners. We are seeking a win-win 
there, and we are certainly looking at other installations, 
too, and the decision on which three BCTs would be eliminated 
certainly is a big factor in all of these decisions.
    Senator Hutchison. When will you pull the plug on Pinon 
Canyon if you don't see a possibility? I mean, it seems pretty 
clear from the outside that is very remote right now. And I 
have tried to help on this, but it is not going anywhere. So 
when do you say, ``Here is plan B?''
    Mr. Hansen. We do not have a date on that yet, ma'am. But 
we certainly are----
    Senator Hutchison. Are you pursuing other options? Are you 
beginning to look for other places where you can expand other 
than Pinon Canyon?
    Mr. Hansen. Within Colorado, there are insufficient Federal 
lands within about a 200-mile radius of Fort Carson that are 
capable of supporting the required maneuver training, and 
Federal lands outside this area would entail additional 
transportation costs, increase convoy travel time, and increase 
the possibility of safety issues and unnecessary hazard to the 
force.
    So, and it would also have significant environmental 
restrictions. So we certainly are looking at expansion at all 
our facilities since we have----
    Senator Hutchison. Other places besides Colorado?
    Mr. Hansen. Yes, ma'am, as part of the decision on the 
three BCTs that we previously discussed, as well as the needs 
at Fort Carson.
    Senator Hutchison. Thank you.
    Mr. Hansen. Yes, ma'am.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Johnson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I appreciate your 
time on this.
    Let me start with you, if I can, Mr. Calcara, and that is 
we have some legislation here that we are working. It is S. 
590, Defense Communities Assistance Act of 2009. And let me 
start with a success story in a post BRAC environment. It is 
actually not in my State. It is in the ranking member's State 
of Texas.
    The Red River Commerce Park is 765 acres that was once part 
of the Red River Army Depot, and it was transferred via a no-
cost EDC 10 years ago. We have that same legislation this time 
to do no-cost EDCs. It now boasts nearly a million square feet 
of industrial commercial space, including a biodiesel 
production facility, 25 private housing units, a golf course, 
and over a dozen tenant companies employing nearly 1,000 
people.
    And from my standpoint, it is probably a lot cheaper in the 
long run on everybody to do a no-cost EDC than it is to try to 
convey the property some other way. I would like to hear your 
thoughts on the Army's position on trying to do some of the 
property that has been BRAC'd, so to speak, through no-cost 
EDCs.
    Mr. Calcara. Yes, sir. Our BRAC disposal strategy is 
contingent upon a number of factors, not to mention the reuse 
plan and the environmental issues on the site. We would prefer 
to keep all the tools available in the BRAC toolbox, including 
no-cost EDCs, cost EDCs, public benefit conveyances, and look 
at the entire suite of options before we unilaterally decide 
that all EDCs would be no cost.
    The Army believes the imperative here is to get the 
property back in productive reuse as quickly as possible. And 
in many cases, that requires investment of dollars for 
environmental cleanup that are otherwise not programmed.

        ENVIRONMENTAL CLEANUP OF LONE STAR ARMY AMMUNITION PLANT

    One of the strategies that we believe works best for that 
is to go to public market, bring private dollars to the table, 
and have cleanup done incidental to redevelopment. This reduces 
the cost of the cleanup in terms of funding it up front, gets 
the property redeveloped quicker, and also brings in private 
capital to supplement precious dollars that we would have to 
program for cleanup.
    So, in the end, the speed is one aspect of it. But it 
really becomes speed and productive reuse as quickly as 
possible--not just speed and transfer, but speed in getting the 
cleanup done.
    Senator Pryor. Let me ask this as a follow-up to that. The 
Lone Star Army ammunition plant, which is basically more or 
less adjacent property, as Senator Hutchison knows, was, again, 
BRAC'd in 2005. Do you know--do you have a sense of how much it 
has cost the Army to maintain that property since 2005?
    Mr. Calcara. I don't have the numbers available. The issue, 
of course, with Lone Star for us would not necessarily be a 
cost avoidance for caretaker. It is more where are we going to 
get the environmental dollars to clean it up and program it?
    What we would like to do with Lone Star is leverage the 
timber to reinvest back in the property for cleanup, to help 
not only expedite transfer, but clean up at a cost-effective 
basis.
    Senator Pryor. Do you remember, I thought we appropriated 
some money to do the cleanup?
    Mr. Calcara. We do have some dollars appropriated, but we 
do not believe those will be sufficient to get the property 
cleaned and back into reuse as quickly as if we did go to a 
public sale process to tap private markets.
    Senator Pryor. Do you know what your current timeline is on 
making the decisions around Lone Star?
    Mr. Calcara. We just received the reuse plan in here about 
30 days ago. We are studying it. We are looking to make some 
broad-based decisions later this summer.
    Senator Pryor. Mr. Hansen, do you have any comments on Lone 
Star and the approach that Army is taking with regard to the 
no-cost economic development conveyance?
    Mr. Hansen. Not beyond what Mr. Calcara said, sir.
    Senator Pryor. Let me ask, if I may, General Carpenter, 
about some training facilities available to National Guards 
around the country. I know that one of the things that we see 
that has obviously become more and more important in the last 
few years is the so-called ``live fire experience,'' where it 
may be urban warfare, and they need to simulate that as part of 
their training. For example, the Arkansas National Guard has to 
travel to Camp Shelby, Alabama, to do that.
    Have you looked at whether it is more cost effective to do 
the travel and to keep all the folks moving and take them 
offsite and out of State, in many cases hundreds and hundreds 
of miles away, and do that training versus just building 
training facilities in the home State? Have you all looked at 
that?
    General Carpenter. Sir, as an overall project in that 
arena, what we have seen in the last several years because of 
the increased number of brigade combat teams in the active 
Army, we have seen places where the Army National Guard has 
traditionally gone to train not being available because of the 
mobilization process and also because of the other tenants on 
the installation. For instance, the 256 Brigade out of 
Louisiana----
    Senator Pryor. Right.
    General Carpenter [continuing]. Struggles to get on Fort 
Polk now because of the training in the OPTEMPO in that 
particular arena. We have worked with 1st Army and are 
currently doing a study on those kinds of things that you have 
just outlined, sir. And the issue is where do we train the Army 
National Guard, and what is the proximity to that unit's home 
station?
    And so, between simulation and the live fire piece, we have 
that under study right now, and we would expect to have that 
study completed some time in the next year.
    Senator Pryor. Great.
    Thank you, Mr. Chairman.

             FISCAL YEAR 2010 BUDGET REQUEST FOR ARMY GUARD

    Senator Johnson. I will use my discretion to ask one more 
question. Mr. Calcara, the committee is concerned about the 
level of funding requested for the Army Guard and Reserve 
forces. The Guard and Reserves have been a critical component 
in our operations in Iraq and Afghanistan.
    Recently, Secretary Gates indicated that more Reserve 
components may be tapped for service in Afghanistan, and yet we 
see a 54 percent reduction in the fiscal year 2010 budget 
request for the Army Guard. Can you explain this reduction in 
funding, and what impact is it having on the backlog of needed 
Guard and Reserve construction projects?
    Mr. Calcara. Yes, Mr. Chairman.
    I think you need to look at the two sets of numbers in the 
request for each year, as opposed to the difference between 
what was enacted last year and this year's request. I don't 
believe the difference is that great. And as it tiers into the 
greater Army program of Grow the Army and global positioning, 
along with the increases in the Reserves, I think we are 
meeting all the current requirements that the Guard has for 
fiscal year 2010.
    We do have additional requirements that we are looking to 
rack and stack from 2011 through the FYDP, and we are working 
on that now. But I think if you compare the fiscal year 2009 
request to the 2010 request, there is about a 10 or 15 percent 
difference between the two numbers.
    Senator Johnson. Senator Hutchison.
    Senator Hutchison. I am through. Thank you.
    Senator Johnson. You may be excused.
    Senator Hutchison. Thank you all very much.
    Senator Johnson. Thank you.
                      Department of the Air Force

STATEMENT OF KATHLEEN I. FERGUSON, DEPUTY ASSISTANT 
            SECRETARY FOR INSTALLATIONS
ACCOMPANIED BY:
        GENERAL JOSEPH LENGYEL, COMMANDER, AIR NATIONAL GUARD READINESS 
            CENTER
        GENERAL HOWARD THOMPSON, DEPUTY TO THE CHIEF OF STAFF, AIR 
            FORCE RESERVE
    Senator Johnson. I am pleased now to welcome our second 
panel of witnesses, Ms. Kathleen Ferguson, Deputy Assistant 
Secretary of the Air Force for Installations; General Joseph 
Lengyel, Commander, Air National Guard Readiness Center; and 
General Howard Thompson, Deputy to the Chief of Staff for the 
Air Force Reserve.
    Thank you all for coming. We look forward to your 
testimony. And again, your full statements will be entered into 
the record.
    Ms. Ferguson, please proceed.
    Ms. Ferguson. Thank you, Mr. Chairman. On behalf of 
America's airmen----
    Senator Hutchison. Is your microphone on?
    Ms. Ferguson. That would be better, I guess.
    It is my pleasure to be here today, along with Generals 
Lengyel and Thompson from the Air National Guard and the Air 
Force Reserve.
    We would like to begin today by thanking the committee for 
its continued support of your Air Force and the many dedicated 
and brave airmen and their families serving around the globe.
    Today, more than 27,000 airmen are currently deployed in 
support of ongoing operations in Iraq, Afghanistan, the Horn of 
Africa, and many others, daily demonstrating their importance 
in support of joint combat operations. Within the Secretariat 
for Installations, Environment, and Logistics, we fully 
appreciate the impacts our efforts have in support of these 
airmen and how it affects their ability to positively influence 
our Air Force's warfighting capabilities and capacity to 
counter hostile threats.
    But before we begin, I want to tell you that we heard your 
concerns last year that the Air Force did not have enough funds 
in the future years defense plan (FYDP) and the Air Reserve 
components were not receiving enough of a share. The Air Force 
has increased funding across the FYDP by nearly $2 billion, and 
we have changed the way we allocate between the active Air 
Force, Air National Guard, and Air Force Reserve to give the 
Reserve components a larger share.
    MILCON, family housing, and BRAC programs form the 
foundation of our installation structure. Our installations 
serve as key platforms for the delivery of global vigilance, 
reach and power for our Nation, and our fiscal year 2010 
investments reflect a direct connection to this vital work.
    As we continue to focus on modernizing our aging weapon 
systems, we recognize we cannot lose focus on Air Force 
infrastructure programs. Our fiscal year 2010 President's 
budget request of $4.9 billion for MILCON, military family 
housing, BRAC, and facility maintenance is a reduction from our 
2009 request of $5.2 billion.
    This reflects an increase in MILCON and fact-of-life 
reductions due to the anticipated completion of the 
privatization of military family housing and BRAC 2005 round 
implementation.
    Using an enterprise portfolio perspective, we intend to 
focus our limited resources on the most critical physical plant 
components by applying demolition and space utilization 
strategies to reduce our footprint, aggressively pursue energy 
initiatives, continue to prioritize family housing, and 
modernizing dormitories to improve quality of life for our 
airmen.
    In regards to military family housing, our master plan 
details our housing MILCON operations, maintenance, and 
privatization efforts. Since last spring, we have completed new 
construction or major improvements on more than 2,000 units in 
the United States and overseas, with another 2,286 units under 
construction in the United States and 2,783 units under 
construction overseas.
    Our 2010 budget request for military family housing is just 
over $567 million. The request for housing investment is $67 
million to ensure the continual improvement of our overseas 
homes. Our request also includes an additional $500 million to 
pay for operations, maintenance, utilities, and leases for the 
family housing program.
    Now I would like to address our efforts in support of base 
realignment and closure. BRAC 2005 impacts more than 120 Air 
Force installations. Unlike the last round of BRAC, where 82 
percent of the implementation actions affected the active Air 
Force, in BRAC 2005, 78 percent of implementation actions 
affect the Air National Guard and the Air Force Reserve.
    In fact, the Air Force will spend more than $478 million on 
Air National Guard and Air Force Reserve BRAC MILCON projects. 
The Air Force's total BRAC budget is approximately $3.8 
billion, which the Air Force has fully funded. Our fiscal year 
2010 BRAC 2005 budget request is approximately $418 million, of 
which less than 20 percent is for BRAC MILCON projects. I would 
like to emphasize the BRAC program is on track to meet the 
September 2011 deadline.
    Air Force MILCON, military family housing, and BRAC 
initiatives will continue to directly support Air Force 
priorities. It is imperative we continue to manage our 
installations by leveraging industry best practices and state-
of-the-art technology.
    Our civil engineering transformation efforts, now entering 
the third year, continue to produce efficiencies and cost 
savings that enhance support for the warfighter, reduce the 
cost of installation ownership, and free resources for the 
recapitalization of our aging Air Force weapon systems.
    More importantly, these investments reflect effective 
stewardship of funding designed to serve our airmen in the 
field, their families, and the taxpayer at home.

                           PREPARED STATEMENT

    Mr. Chairman and Senator Hutchison, this concludes my 
remarks. Thank you and the committee again for your continued 
support of our airmen and their families, and we look forward 
to your questions.
    [The statement follows:]

               Prepared Statement of Kathleen I. Ferguson

                              INTRODUCTION

    More than 27,000 Airmen are currently deployed in support of 
ongoing operations, daily demonstrating their importance in support of 
Joint combat operations. Within the Secretariat for Installations, 
Environment and Logistics (SAF/IE), we fully appreciate the impact our 
efforts have in support of these Airman and how it affects their 
ability to positively influence our Air Force's warfighting abilities 
and capacity to counter hostile threats.
    To that end, the men and women of SAF/IE are committed to ensuring 
our Air Force installations are right sized to support our forces, our 
combat systems have a robust logistics infrastructure for sustainment, 
and our forces have the necessary accessibility to the full spectrum of 
our environment to ensure combat readiness. In addition to our Airmen's 
combat readiness, we also appreciate how these same efforts support our 
Airmen and their families and ensure a Quality of Service commensurate 
with the contribution they provide to the defense of our Nation.
    Air Force Military Construction (MILCON), Military Family Housing 
(MFH), and Base Realignment and Closure (BRAC) programs form the 
foundation of our installation structure. Our Air Force installations 
serve as key platforms for the delivery of Global Vigilance, Reach and 
Power for our Nation, and our fiscal year 2010 investments reflect a 
direct connection to this vital work.
    As the Air Force continues to focus on modernizing our aging weapon 
systems, we recognize that we cannot lose focus on critical Air Force 
infrastructure programs. In order to maintain effective stewardship of 
the resources given to us, our fiscal year 2010 President's Budget of 
$4.9 billion for MILCON, BRAC, MFH, and facility maintenance is a 
reduction from our fiscal year 2009 request of $5.2 billion. We intend 
to mitigate potential shortfalls in MILCON and facility maintenance 
funding by bolstering our restoration and modernization programs as 
much as possible. Using an enterprise portfolio perspective, we intend 
to focus our limited resources only on the most critical physical plant 
components, by applying demolition and space utilization strategies to 
reduce our footprint, aggressively pursuing energy initiatives, 
continuing to privatize family housing and modernizing dormitories to 
improve quality of life for our Airmen.
    Our efforts are in direct support of and consistent with the Air 
Forces' five priorities, (1) Reinvigorate the Air Force Nuclear 
Enterprise, (2) Partner with the Joint and Coalition Team to Win 
Today's Fight, (3) Develop and Care for Airmen and Their Families, (4) 
Modernize our Air and Space Inventories, Organizations and Training, 
and (5) Recapture Acquisition Excellence. It is with these priorities 
in mind that I will outline our MILCON, Military Family Housing and 
BRAC efforts and the individual priorities they support.

             REINVIGORATE THE AIR FORCE NUCLEAR ENTERPRISE

    The Air Force has a solemn responsibility and obligation to operate 
and maintain its portion of America's nuclear deterrent posture, which 
consists of land-based intercontinental ballistic missiles, nuclear-
capable bombers and dual capable fighters. Over the past several months 
the Air Force senior leadership team, along with the Office of the 
Secretary of Defense (OSD) and Interagency partners, have closely 
examined the Air Force nuclear enterprise and identified several areas 
for improvement.
    The results of these internal assessments reinforced the need to 
continually focus on nuclear sustainment and operations as well as the 
management of the weapons and their delivery platforms. A critical 
aspect of this effort includes the infrastructure and facilities 
providing the necessary life-cycle installation support of this vital 
mission. Air Force Civil Engineers and field experts are currently 
conducting Facility Condition Assessments of all nuclear-related 
facilities, which will provide detailed information on our 
infrastructure deficiencies directly supporting the nuclear mission. 
Projects will be developed, programmed, and prioritized appropriately 
to obtain the necessary funding required to correct any deficiencies.
    Additionally, the fiscal year 2010 President's Budget request 
includes an investment of $45 million in four infrastructure projects 
at Minot Air Force Base, North Dakota, FE Warren Air Force Base, 
Wyoming and Clear Air Station, Alaska. These projects include missile 
procedures, training operations and missile service complex facilities.

             DEVELOP AND CARE FOR AIRMEN AND THEIR FAMILIES

    Airmen are the Air Force's most valuable resource and we remain 
committed to recruiting and retaining the world's highest quality 
force. As part of the American Recovery and Reinvestment Act of 2009, 
monies allotted to the Air Force support that effort. Over $260 million 
in MILCON will improve the lives of our Airmen and their families 
through MFH improvements, dormitory construction, and providing Child 
Development Center facilities and services.

Developing Airmen
    The Air Force must continue to ensure we are preparing Airmen for 
the challenges of today and tomorrow by providing quality facilities in 
which to train and operate. Our fiscal year 2010 budget request 
includes $39 million for three projects. We will construct a new 
recruit dormitory and basic military training facility giving incoming 
Airmen quality training facilities to start a career of service. 
Another highlight includes a C-5 Ground Training Schoolhouse addition 
for the Air Force Reserve Command.

Military Family Housing Program
    The MFH Master Plan details our Housing MILCON, operations and 
maintenance, and privatization efforts. Since last spring, the Air 
Force completed new construction or major improvements on over 2,000 
units in the United States and overseas, with another 2,286 units under 
construction in the United States and 2,783 units under construction 
overseas.
    Our fiscal year 2010 budget request for MFH is just over $567 
million. The Air Force request for housing investment is $67 million to 
ensure the continual improvement of our overseas homes. Investments 
will provide whole-house renovations for 365 units at two overseas 
bases and extend their useful life. Our request also includes an 
additional $500 million to pay for operations, maintenance, utilities 
and leases for the family housing program.

Housing Privatization
    Housing privatization continues to improve quality of life for our 
Airmen and their families. To date we have privatized approximately 
38,900 housing units at 44 bases. We have seen the delivery of over 
10,000 new or renovated homes and are currently bringing more than 200 
homes a month online. We will have leveraged more than $402 million in 
government investment to garner almost $6.3 billion in private sector 
total housing development, or $16 of private investment for each public 
tax dollar. With the support of Congress, we will continue to work 
toward our goal to privatize 100 percent of Military Family Housing in 
the Continental United States, Hawaii, Alaska and Guam by the end of 
fiscal year 2010.

Unaccompanied Housing (Dormitories)
    The Air Force Dormitory Master Plan is the cornerstone for 
developing requirements for unaccompanied housing. The budget request 
includes five dormitories worth $138 million. We will continue to 
replace existing dormitories at the end of their useful life with a 
standard Air Force-designed private room configuration under the 
``Dorms-4-Airmen'' concept. Simultaneously, our implementation of a 
``bridging strategy'' ensures we are investing Facility Sustainment and 
Restoration and Modernization funds into aging facilities to extend 
their useful life until MILCON replacements can be executed and to 
ensure we keep ``good dormitories good.''

Fitness and Child Development Centers
    Elevated operations tempo and increased home-station demands makes 
physical fitness an imperative for Airmen. Our fiscal year 2010 request 
includes two Fitness Centers worth $41 million. We also remain focused 
on providing our families with appropriate and nurturing child care 
facilities. We will continue to invest in these facilities which we 
believe are key to caring for Airmen and their families. This year's 
budget request includes two child development centers worth $20 
million.

Environmental Quality and Management Systems
    Our environmental management programs continue to ensure the most 
basic quality of life needs are met for our Airmen and surrounding 
communities: clean air, clean drinking water and healthy working and 
living conditions for our workforce and base residents. We have 
implemented a new environmental management approach at Air Force 
installations. Installations are now utilizing the Environmental 
Management System to identify environmental aspects of base operations, 
assess their impacts, and help commanders make informed decisions and 
investments to reduce environmental risks and compliance costs. Our 
installation commanders significantly reduced new environmental 
enforcement actions by 44 percent from fiscal year 2005 to fiscal year 
2008.
    We are also continuing our existing environmental quality and 
restoration programs. The fiscal year 2010 request includes just under 
$1 billion for direct-funded non-BRAC environmental programs such as: 
traditional environmental restoration activities, environmental 
compliance activities and projects, pollution prevention initiatives, 
environmental conservation activities, munitions response activities, 
and investment in promising environmental technologies. Our 
environmental restoration program is proceeding aggressively to clean-
up sites contaminated by past practices. The Air Force closed or has 
remedies in place at 89 percent of the contaminated sites and expects 
to have remedies in place at all sites by fiscal year 2012, 2 years 
ahead of the Department of Defense fiscal year 2014 environmental 
restoration goal.

  MODERNIZE OUR AIR AND SPACE INVENTORIES, ORGANIZATIONS AND TRAINING

    Modernizing our aging air and space inventories, organizations and 
training to prepare for tomorrow's challenges requires significant 
investment of $353 million for 34 projects. We will complete the 
planned F-22 beddown, including the two Air National Guard projects at 
Hickam Air Force Base, Hawaii. The beddown of the F-35 also continues 
to be a priority, with eight projects supporting actions at Nellis Air 
Force Base, Nevada and Eglin Air Force Base, Florida.
    We also continue to modernize our facilities in support of our 
larger aircraft by constructing seven new facilities supporting C-130 
operations and training. Other projects in this program include a 
consolidated communication facility at Cannon Air Force Base, New 
Mexico, two research facilities at Wright Patterson Air Force Base, 
Ohio and upgrading electrical infrastructure at Hurlburt Field, 
Florida. As part of our work to achieve balance across our portfolios, 
we continue to transform the enterprise by developing new concepts of 
operations, implementing organizational change, and integrating 
advanced technologies in installation support.

Energy Stewardship
    The Air Force has launched an aggressive program to invest in 
facility energy conservation and renewable energy alternatives. 
Recently, the Secretary of the Air Force signed a Mission Directive 
institutionalizing energy policy within the Air Force and driving more 
efficient energy management practices. Together, these policies will 
direct specific actions in the areas of operational processes, 
training, and installation management geared toward reducing our 
``energy footprint,'' and increasing our use of cleaner energy 
alternatives.
    Over the past year, we've stood up the Air Force Facility Energy 
Center (FEC) at the Air Force Civil Engineer Support Agency at Tyndall 
Air Force Base, Florida. The new FEC consolidates energy technical 
expertise and project management capabilities in order to leverage best 
practices across the force. The goal of this office is to develop and 
implement innovative energy solutions reducing our energy ``footprint'' 
at Air Force installations. In 2008, the Air Force Infrastructure 
Energy Strategic Plan was issued to guide the strategic and tactical 
direction of our energy program, a plan designed to balance supply-side 
energy assurance and demand-side energy efficiency. It incorporates the 
energy strategy of the 21st Century designed to meet the energy 
mandates outlined in the Energy Policy Act 2005 (EPAct 05), Executive 
Order (EO) 13423 and Energy Independence and Security Act of 2007 (EISA 
2007). The strategy maps the way ahead for meeting energy mandates 
through fiscal year 2015 and covers facilities infrastructure as well 
as fuel efficiency in our ground transportation fleet.
    The new infrastructure energy strategy is founded on Four Pillars 
that are designed to (1) Improve Current Infrastructure, (2) Improve 
future infrastructure, (3) Expand renewables, and (4) manage cost. We 
intend to achieve the Four Pillars by incorporating best business 
practices into our education and training programs, pursuing cultural 
change in our organizations, and improving our asset management. We see 
potential indicators that our efficiency strategy is providing return-
on-investment. In 2008, the Air Force energy intensity decreased by 
17.8 percent from the fiscal year 2003 baseline. The Air Force also 
developed a life-cycle cost-effective metering strategy to meet EPAct 
05, which mandates the installation of electric meters on required 
facilities by 2012. We recognize the value of metering and are already 
74 percent complete toward the goal. The Air Force is also making great 
strides in our water conservation program. In fiscal year 2008, we 
consumed 1.3 billion gallons less water than our fiscal year 2007 water 
usage.
    In the area of renewable energy, our strategy expands public and 
private partnerships by leveraging private sector capital to bring 
renewable power production to our bases at competitive prices. For 
example, in a partnership with state and local government and private 
industry, the photovoltaic (PV) solar array at Nellis Air Force Base, 
Nevada, the largest PV array in North America, generated 57,139 
megawatt-hours in fiscal year 2008. Through a Congressional 
appropriation, F.E. Warren Air Force Base, Wyoming, installed a 2,000 
kilowatt wind turbine in January 2009, adding to the two turbines 
already operational. Together the three wind turbines are capable of 
generating 6.7 million kilowatt-hours per year, enough to power 836 
homes. These and other renewable energy and conservation initiatives 
provide examples of how the Air Force is committed to not only meeting, 
but exceeding the goals of the new Executive Order with initiatives 
that provide long-term return-on-investment.

Sustainability
    With an eye toward improving future infrastructure, our traditional 
project goals of delivering high quality facility projects on schedule 
and within budget is expanding to include creation of functional, 
maintainable, and high performance facilities. Under EO 13423 and EISA 
2007, the Air Force employs the Federal Leadership in High Performance 
and Sustainable Building Guiding Principles to reduce total cost of 
ownership and improve energy efficiency and water conservation to 
provide safe, healthy, and productivity-enhancing facility 
environments. We also employ the U.S. Green Building Council's 
Leadership in Energy & Environmental Design (LEED) criteria in our 
designs. The LEED Green Building Rating System is the nationally 
accepted benchmark for the design, construction, and operation of high 
performance green buildings. In 2008, the Air Force certified its first 
LEED gold building at Offutt Air Force Base, Nebraska. This year, 100 
percent of Air Force-eligible MILCON projects will be capable of 
certification in LEED.
    The Air Force understands that it is not just new construction that 
needs this focus and attention. We have already begun the task of 
greening our existing building inventory and installation support 
platforms. Sustainability cannot just be about facilities, it has to be 
a holistic approach to include how we develop and sustain our 
installations. The vision is to build and shape sustainable communities 
using innovative solutions to lower the cost of installation support 
and provide more eco-friendly installations.

BRAC 2005 Execution Report Card
    BRAC 2005 impacts more than 120 Air Force installations. Whether 
establishing the F-35 Joint Strike Fighter Initial Training Site at 
Eglin Air Force Base, Florida, closing Kulis Air Guard Station in 
Alaska, or transferring Pope Air Force Base, North Carolina to the 
Army, the Air Force community as a whole--active, Guard, Reserve--will 
benefit from changes BRAC achieves.
    Unlike the last round of BRAC where 82 percent of the 
implementation actions affected the active Air Force, in BRAC 2005, 78 
percent of implementation actions affect the Air National Guard and Air 
Force Reserve. In fact, the Air Force will spend more than $486 million 
on Air National Guard and Air Force Reserve BRAC MILCON projects. In 
addition, many of the BRAC MILCON projects on active Air Force 
installations, like the C-130 facilities built or renovated at 
Elmendorf Air Force Base, or KC-135 facilities built or renovated at 
Seymour-Johnson and MacDill Air Force Bases, will benefit Air Reserve 
Component forces stationed there.
    The Air Force's total BRAC budget is approximately $3.8 billion, 
which the Air Force has fully funded.
    The Air Force's largest BRAC costs are for military construction 
projects; approximately $2.6 billion. Operations and Maintenance 
expenditures closely follow at $926 million. This includes expenditures 
for civilian pay and moving expenses, supplies, equipment, travel, etc. 
There are other BRAC expenses, as well. Other requirements include 
expenses for information technology, equipment procurement, and Air 
Force Reserve and Air National Guard training, to name a few, at $142 
million.
    Other BRAC programmed amounts include $132 million for military 
personnel expenses and environmental planning and cleanup.
    The Air Force's fiscal year 2010 BRAC 2005 Budget Request is 
approximately $418 million, of which less than 20 percent is for BRAC 
MILCON projects.
    The Air Force's primary focus in the fiscal year 2010 program is in 
budget areas other than BRAC MILCON because we are now more focused on 
personnel-related issues, relocating assets and functions, outfitting 
new and renovated facilities, procuring end-state necessities, and 
continuing environmental actions to realign and integrate the total 
force.

Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in the Joint environment. The Air Force remains committed 
to ensuring all bases, Joint or otherwise, maintain their capability as 
weapon system platforms and meet our quality of life standards. To 
accomplish this we worked with our sister Services and OSD to establish 
common quality of life standards that ensure our personnel receive 
efficient installation support services.
    The Services are addressing many complex issues such as information 
technology integration, human resources planning, manpower and fiscal 
resources, and new organizational structures. A Senior Joint Base 
Working Group, led by the Deputy Undersecretary of Defense 
(Installations and the Environment) developed implementation policy to 
guide the transition of installation management functions and meet the 
BRAC timeline. The group is in the process of reviewing and 
coordinating the numerous details in the formal support agreements and 
implementation plans to establish each Joint Base. The five Joint Bases 
aligned in the first phase of implementation have developed 
comprehensive Memoranda of Agreement (MOA) establishing the 
relationships between the Services, and are now shifting their focus to 
the orderly transition of installation management functions by October 
2009. The seven Phase II installations are developing their MOAs now 
and will begin the transition of functions next year, and will complete 
the process by October 2010.

Legacy BRAC--Real Property Transformation
    The Air Force remains a Federal leader in the implementation of the 
management principles outlined in Presidential Executive Order 13327, 
Federal Real Property Asset Management. We continue to aggressively 
manage our real property assets to deliver maximum value for the 
taxpayer, improve the quality of life for our Airmen and their 
families, and ensure the protection and sustainment of the environment 
to provide the highest level of support to Air Force missions. The Air 
Force is achieving these goals through an enterprise-wide Asset 
Management transformation that seeks to optimize asset value and to 
balance performance, risk, and cost over the full asset life cycle. Our 
approach is fundamentally about enhancing our built and natural asset 
inventories and linking these inventories to our decision-making 
processes and the appropriate property acquisition, management and 
disposal tools.
    Even though the BRAC 2005 round did not reduce the Air Force's real 
property footprint, our current transformation efforts seek to ``shrink 
from within'' and to leverage the value of real property assets in 
order to meet our ``20/20 by 2020'' goal of offsetting a 20 percent 
reduction in funds available for installation support activities by 
achieving efficiencies and reducing by 20 percent the Air Force 
physical plant that requires funds by the year 2020.

Base Realignment and Closure Property Management
    To date, the Air Force has successfully conveyed by deed nearly 90 
percent of the 87,000 acres of Air Force BRAC 88, 91, 93 and 95, which 
we refer to as legacy BRAC, with the remainder under lease for 
redevelopment and reuse. The highly successful reuse of Air Force Base 
closure property led to the creation of tens-of-thousands of jobs in 
the affected communities. To complete the clean up and transfer by deed 
of remaining property, the Air Force is partnering with industry 
leaders on innovative business practices for its ``way ahead'' 
strategy. These include an emphasis on performance-based environmental 
remediation contracts, using such performance-based contracts on 
regional clusters of BRAC bases, and innovative tools such as early 
property transfer and privatization of environmental cleanup so that 
the cleanup efforts complement, rather than impede, the property 
redevelopment plans and schedules. Our objectives remain constant and 
clear: (1) provide reuse opportunities that best meet the needs of the 
Air Force and local communities, (2) move the process along smartly in 
each situation to get property back into commerce as soon as practical, 
and (3) provide transparency throughout the process. Of the 32 legacy 
BRAC bases slated for closure, the Air Force completed 20 whole-base 
transfers. Ten of the remaining 12 bases are targeted for transfer by 
the end of fiscal year 2010, while the last two (former George and 
McClellan Air Force Bases) will be transferred no later than the end of 
fiscal year 2012.
    As the Air Force transfers BRAC property for civic and private 
reuse, it is paramount we ensure any past environmental contamination 
on the property does not endanger public health or the environment. The 
Air Force will continue to fulfill this most solemn responsibility, as 
reflected in our fiscal year 2010 request of $116 million for legacy 
BRAC cleanup activities and another $20 million for BRAC 2005 cleanup 
activities. Recent progress at the former McClellan Air Force Base in 
Sacramento, once the most environmentally contaminated closure base 
within DOD, is a sterling example of the effective approach taken by 
the Air Force and the local community in fostering redevelopment of 
closure base property. As a result of previously unprecedented 
collaboration between the local community, the Environmental Protection 
Agency, State environmental regulators, the primary developer, and the 
Air Force on the privatization of cleanup of the base, the former base 
is quickly becoming the ``greenest'' business park in California. It is 
home to what will be the most energy-efficient computer data center in 
the Nation. The former base is also now home to North America's largest 
photo-voltaic solar panel manufacturing plant, a 1-million square foot 
joint venture facility called Opti-Solar. The plant will create 1,000 
green jobs producing 2,000 solar panels per day beginning in 2009.
    In summary, the Air Force's real property asset management 
framework involves an understanding and balancing of our mission needs 
and risks with market dynamics, the Federal budget, the condition and 
performance of our assets and the need to protect the environment.

     PARTNER WITH THE JOINT AND COALITION TEAM TO WIN TODAY'S FIGHT

    America's Airmen are ``All In'' supporting the Joint and Coalition 
team to win today's fight with precision and reliability. Our fiscal 
year 2010 program includes $544 million for 28 projects directly 
connected to today's fight. Four projects valued at $198 million 
directly support U.S. Central Command by providing much needed in-
theater airlift ramp and fuel facilities, a war-reserve material 
compound, and a passenger terminal. Other projects include an aerospace 
ground equipment maintenance complex at Ramstein Air Base in Germany, a 
Global Hawk maintenance and operations complex at Naval Air Station 
Sigonella in Italy, and beddown facilities for Air Force air support 
and operations personnel with Army units. These investments provide 
direct returns by reducing backlog and waste in our logistics trail, 
and increase the capacity and efficiency of our fighting forces at 
downrange locations.
    Approximately 30,000 Airmen are currently deployed as part of 
Operations ENDURING FREEDOM and IRAQI FREEDOM. More than 3,000 of these 
Airmen are civil engineers, with over 40 percent of our deployed 
engineers filling Joint Expeditionary Tasking billets, serving side-by-
side with our sister Services. Our heavy construction Rapid Engineer 
Deployable Heavy Operational and Repair Squadron Engineers (RED HORSE) 
and our Prime Base Engineer Emergency Force (BEEF) engineers are well-
known in-theater for their ability to build and maintain expeditionary 
installations. Airmen continue to assist both Iraq and Afghanistan in 
building the capacity to provide self-governance. Since 2004, the Air 
Force has completed over $5.6 billion in major renovation or 
construction projects, giving the governments of Iraq and Afghanistan 
the capacity to provide basic services for its people. Whether it is 
serving on Provincial Reconstruction Teams, mitigating the threat of 
improvised explosive devices, standing up host nation Field Engineering 
Teams, or teaching aspiring engineers at the Afghan Service Academies, 
Airmen continue to demonstrate courage, commitment, and dedication in 
contingency operations. We are honored to serve with our Joint and 
Coalition team partners and will continue to support the Nation's call-
to-arms by providing unique engineering capabilities and the most 
talented installation support personnel available.

                    RECAPTURE ACQUISITION EXCELLENCE

    The Air Force remains committed to recapturing acquisition 
excellence and developing innovative solutions that enable smart 
business decisions. Through the Air Force Civil Engineer Strategic 
Sourcing Program Management Office at the Air Force Civil Engineer 
Support Agency at Tyndall Air Force Base, Florida, we are working to 
select and prioritize sourcing opportunities and oversee the efforts of 
other Major Command-initiated CE strategic sourcing efforts. The 
Program Management Office will capitalize on industry-best practices to 
reduce the cost of building systems and commodities while improving the 
delivery of support to our customers. Five strategic sourcing 
opportunities and a commodity cost review are currently in progress to 
identify sourcing strategies leading to regional or enterprise-level 
acquisitions. We organized a staff comprised of civil engineers, 
contracting officers and financial specialists to ensure we implement a 
well-integrated, cross functional approach aimed at determining the 
right investments for our enterprise.

                               CONCLUSION

    Air Force MILCON, MFH and BRAC initiatives will continue to connect 
directly to Air Force priorities. It is imperative we continue to 
manage our installations by leveraging industry-best practices and 
state-of the-art technology. Our CE transformation effort, now entering 
its third year, continues to produce efficiencies and cost savings that 
enhance support for the warfighter, reduce the cost of installation 
ownership, and free resources for the recapitalization of our aging Air 
Force weapon systems. More importantly, these investments reflect 
effective stewardship of funding designed to serve our Airmen in the 
field, their families, and the taxpayer at home.

    Senator Johnson. Thank you, Ms. Ferguson.
    The fiscal 2010 Air Force budget request for military 
construction is about 10 percent lower than the 2009 request. 
Last year, the Air Force acknowledged that it was assuming a 
greater risk in construction funding to steer more funds into 
air and space assets.
    Is this year's budget request a continuation of that 
policy? Could you outline that risk that the Air Force is 
leveraging with the drop-off in funding for military 
construction?

        AIR FORCE RESERVE AND AIR NATIONAL GUARD MILCON FUNDING

    Ms. Ferguson. Yes, thank you.
    Overall, the Air Force has reduced our fiscal year 2010 
President's budget request from our fiscal year 2009 President 
budget request. In fiscal year 2009, our request for 
infrastructure programs was $5.2 billion. And this year, when 
you add MILCON, family housing, BRAC, and facility maintenance, 
we are right about $4.9 billion.
    We have increased in some areas and have decreased in 
others. In military construction, from one President's budget 
to the other President's budget, we have increased about $300 
million. We have increased our family housing maintenance count 
by about $200 million, predominantly in the energy area and to 
improve dormitories.
    And we have reduced funding in both family housing and 
BRAC, directly related to reduced requirements in both of those 
accounts. And that is good news because that reflects success 
in the program, and we do not need any additional funding 
beyond what we have asked for in this budget for either BRAC or 
family housing.
    Overall, if you look to see how we allocated the funds 
between the active and Air National Guard--and each the active, 
Air National Guard, and Air Force Reserve have seen increases 
from last year--our active request went up about 22 percent, 
the Air Force Reserve about 45 percent, and the Air National 
Guard went up about 273 percent. But as you do point out, it is 
lower than the appropriated amount, but the Air Force did 
increase--continues to take risk in infrastructure, but did 
increase our President's budget request above what we did have 
last year.
    Senator Johnson. Could you give me an update on the housing 
privatization efforts at Ellsworth Air Force Base?
    Ms. Ferguson. The Ellsworth Air Force Base project is part 
of a grouped project. It is in the concept development stage 
right now, and we anticipate coming over to the Hill to give a 
briefing within the next few months. But I will be happy to 
come over and give you more details on that.
    [The information follows:]

                  Ellsworth AFB Housing Privatization

    The Air Force will provide the Military Construction-Veterans 
Affairs Subcommittee, Senate Appropriations Committee a briefing on the 
housing privatization efforts at Ellsworth Air Force Base, South Dakota 
in July 2009.

    Senator Johnson. As a result of an OSD decision, the Air 
Force budget request does not include an updated FYDP. Last 
year, the Air Force Guard and Reserve FYDPs were very thin. 
What impact will the new FYDP policy have on the ability of 
Congress to provide additional funds for key Air Guard and 
Reserve priorities?

     FUTURE YEARS DEFENSE PROGRAM AND AIR RESERVE COMPONENT FUNDING

    Ms. Ferguson. At this time, OMB has asked the Department 
not to present any funding beyond fiscal year 2010 in our 
budget. Pending the additional guidance from the President and 
OMB beyond what is in our justification books, we are 
continuing to work with OSD on the development and release of 
anything beyond what we have provided in fiscal year 2010.
    Senator Johnson. General Lengyel and General Thompson, 
would you please give the subcommittee your assessment of this 
situation?
    General Lengyel. Yes, Mr. Chairman. Thank you for the 
question and the opportunity to comment.
    It is a concern to the National Guard bureau that 
potentially there are projects in the FYDP to accelerate. As 
you are well aware, the Air National Guard has been able to 
gain an average of $150 million or more in accelerations 
yearly. So the inability to do that could, in fact, hinder our 
ability to recapitalize our $14 billion plant.
    We hope perhaps that there is some way that we find a way 
to fund those projects into the FYDP so that they can be 
accelerated. But currently, we are playing as partners with the 
Air Force with the funds available in the program.
    Senator Johnson. General Thompson.
    General Thompson. Sir, we are just a microcosm of the 
overall Air Force, the same as the Air National Guard. Much 
smaller program, but we have the same concerns.
    We have a backlog that we would like to be able to 
accelerate. As with the Army that spoke earlier, our request 
last year of $19 million ended up an appropriation of $37 
million. Our request this year is $27 million. So we are--like 
the regular Air Force, our appropriation did exceed our 
request. So we thank you very much for that.
    So just as Joe mentioned, we will be in the same boat, all 
three components of the Air Force, if we cannot work some 
accelerations with you.
    Senator Johnson. General Lengyel and General Thompson, I am 
deeply concerned over the level of funding in the fiscal year 
2010 request for the Air Guard and Reserve. The Air Guard 
request is 60 percent below the fiscal year 2009 enacted level, 
and the Air Force Reserve request is nearly 26 percent below 
fiscal year 2009 enacted.
    This is not the first decrease we have seen in funding 
requests from the Air Guard and Reserve. What impact is this 
trend having on the Air Guard and Reserve MILCON program?
    General Lengyel. Well, sir, Mr. Chairman, once again I 
would comment that I see this budget as actually an improvement 
over the previous 2 year budgets for sure. Last year, I believe 
we had somewhere just over $34 million in current mission 
projects in the budget. This year, we are in excess of $120 
million.
    We are pleased and working again in concert with the other 
components in the Air Force to play by the same rules. I can 
tell you that like every other part in the Air Force, the Air 
National Guard received its top three priorities in MILCON 
projects, no different than anyone else.
    Competition for funding in the budget process is a 
challenge, but we are happy to say that with the Air Force, we 
are playing pretty much as one team. And we are treated no 
different, I would say, than any other part of the Air Force.
    Senator Johnson. General Thompson.
    General Thompson. Sir, I concur with General Lengyel. And 
the thing that I think is the difference this year than perhaps 
last year is we, as the Air Force, changed the business rules 
whereby the Reserve components received their percentages of 
the overall MILCON budget, which resulted in a more fair 
application of those percentages across our portfolio. So it is 
better than last year.
    Now, frankly, it is the difference between last year and 
this year was the wisdom of the Congress in accelerating some 
additions to the budget. But our requests are in line. We feel 
fairly treated. We are equal partners with the Air Force, and 
especially with the change in business rules, we are very 
satisfied with the way that we are treated as part of the Air 
Force team.
    Senator Johnson. Thank you.
    Senator Hutchison.
    Senator Hutchison. Well, I want to thank the chairman for 
asking about the Reserve issue because that has been a concern 
of mine as well.

            24TH AIR FORCE HEADQUARTERS MILCON REQUIREMENTS

    We are all waiting for the decision on the Cyber Command, 
as you can imagine, and I wondered what the MILCON requirements 
might be for the new 24th Air Force headquarters that will come 
with that Cyber Command?
    Ms. Ferguson. Ma'am, it would be premature for me to 
speculate at this time because the Air Force has not yet made 
an announcement on the basing location. But certainly, as soon 
as that is made, we can provide you and your staff an update on 
that.
    Senator Hutchison. Regardless of where it goes, have you 
done planning or is there nothing contingent in your budget 
request for any added building for that?
    Ms. Ferguson. There is nothing in our building request for 
Cyber Command right now. What I can describe is the process 
that we have gone through so far. As you know, the Air Force 
announced in January six locations that were going to be 
visited for possible beddown locations for Air Force Cyber 
Command.
    Space Command took the lead. They performed the site 
surveys at each of those six locations. And as they performed 
those six site surveys, they looked at what it would take to 
reach initial operating capability at that installation, and 
they looked at what it would take to get to final operating 
capability at that location.
    They also evaluated the installation based on six criteria 
that had been provided by the Secretary of the Air Force, and 
they included things like mission synergy, communications, 
bandwidth, availability of facilities, transportation, 
security, and off the top of my head, I can't remember the last 
one.
    But that has been ongoing, and right now, we are just 
waiting to make the announcement for the preferred location and 
the other reasonable alternatives. And at that time, the Air 
Force will begin to accomplish the environmental assessment for 
the beddown of Cyber Command.
    Senator Hutchison. So what then would be the timetable? If 
there is nothing in this year's budget request for generic 
military construction for that headquarters, what would then be 
the timetable for putting it into the FYDP or into a future 
budget?
    It just seems like you would want to stand it up as early 
as possible. And I would have thought you might have something 
set aside for that for whenever the announcement was made so it 
could be started immediately.
    Ms. Ferguson. Our anticipation is that it will be in the 
fiscal year 2011 budget request. If any MILCON is required to 
stand up Cyber Command or Cyber Numbered Air Force (NAF), that 
will be done in the fiscal year 2011 budget. And we will work 
an interim operations and maintenance (O&M) fix, O&M solution 
if required for the interim stand-up.

            JOINT BASING AND BRAC 2005 ROUND IMPLEMENTATION

    Senator Hutchison. Okay. Let me ask you the other issue 
that I had mentioned earlier, and that is the Air Force will be 
the lead on 6 of the 12 joint bases in BRAC. What are your 
preparations for that, and what is your thought of the way you 
will be putting those operations headquarters together for all 
the different services?
    Ms. Ferguson. Sure. And as you point out, they are through 
BRAC 2005, joint basing was directed at 12 installations, 12 
joint basing installations. The Air Force has lead at six of 
those installations, and we are follow at four. And we have 
been working very closely with OSD and our partners in the Army 
and the Navy to execute joint basing as directed by BRAC 2005.
    And OSD and the other services have basically broken down 
joint basing implementation into two phases, and Phase ones are 
underway right now. The memorandums of agreement have all been 
signed for the first five joint bases. In the first five, it is 
Naval Air Base Little Creek/Fort Story, Fort Myer/Henderson 
Hall, Andrews/Naval Air Station Washington, McGuire/Fort Dix/
Lakehurst, and then installations at Guam, both Andersen Air 
Force Base and Navy Region Guam.
    All the rest of the joint bases are in Phase II, and that 
does include Lackland Air Force Base, Fort Sam Houston, and 
Randolph Air Force Base. And I can tell you briefly, all of the 
Phase I bases have reached their initial operational capability 
today, and they will reach full operational capability, will be 
fully stood up on 1 October of this year.
    The Phase II MOAs--and I can talk to you specifically about 
Lackland/Fort Sam in just a second. All the Phase II MOAs are 
under development right now with an initial operational 
capability (IOC) for the follow-on for the Phase II bases in 
January 2010 with full operating capability in October 2010.
    Lackland Air Force Base, Fort Sam Houston, and Randolph Air 
Force Base are one of the last seven bases to go through this 
process I will describe for you. But there is a combination of 
folks here in Washington, DC helping to make this work, along 
with each of the major commands helping to make this work.
    And the next major milestone for Lackland Air Force Base/
Fort Sam Houston on May 22, the command structure at the major 
commands for both the Army and the Air Force will submit a 
draft memorandum of agreement to the Department of Defense for 
us to start looking at. And there will be a workshop that is 
held in San Antonio from the 9th to 12th of June.
    The anticipation for an MOA signature for Fort Sam Houston, 
Lackland Air Force Base, and Randolph Air Force Base will be 
the 22nd of September.
    Senator Hutchison. Could I just follow up with a quick 
question, and that is who will make the MILCON requests where 
there are joint bases? Will it be the lead, or will it be the 
service?
    Ms. Ferguson. It will be the lead for installation support 
functions. If there is a mission change, then it will be the 
requiring. So if there is an Army mission change on Fort Sam 
Houston, the Army would make that request. If it was for a 
regular mission support facility, like a gym or an 
administrative facility to replace something existing, the Air 
Force would do that as the lead for that joint base.
    Senator Hutchison. Thank you.
    Senator Johnson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

                  AMERICAN EAGLE HOUSING PRIVATIZATION

    Ms. Ferguson, let me ask, as you are very well aware 
because you have dealt with this for a long time, the Little 
Rock Air Force Base, along with bases in Georgia, 
Massachusetts, and Florida, was able recently to resolve a very 
complicated housing privatization issue. And the first question 
is could you give us just--give the subcommittee here a status 
report on all the bases, if you could, just kind of where that 
stands now and particularly where we started in terms of what 
our original goals were versus how many houses and how many 
refurbished houses we end up with now?
    Ms. Ferguson. Sure. And first, I want to thank you and your 
staff for all the work you helped us with as we did the work 
out of the American Eagle project. As you know, the American 
Eagle projects, the four projects were very difficult for us, 
and we appreciate the support of yourself and the other members 
as we worked through that.
    Specifically for Little Rock Air Force Base, the scope was 
reduced from 1,200 to 1,000 as we worked the restructured deal. 
And there was less new construction than what was in the 
original American Eagle project.
    The feedback we have got so far is the Hunt-Pinnacle team, 
the new project owner that is in there, has done a great job of 
bringing in new branding to the installation. They have done a 
tremendous job of taking care of some of the backlogs of 
maintenance, roof repair, storm damage repairs that were both 
at Little Rock and Moody Air Force Bases.
    And we have got great feedback from the installations on 
the work that they have done since they have gone in there in 
November. The Air Force has issued notice to proceed for 
demolition and construction, and Hunt-Pinnacle has begun work 
on the 10 partially completed houses that American Eagle 
started. And those houses should be complete in June. We should 
be able to start moving families into those 10 houses in June.
    The other things they are doing is they are demolishing 
some of that partial work that American Eagle had done that 
wasn't recoverable, and that should be done also. And starting 
in June, they should begin working on 131 new houses at Little 
Rock Air Force Base with work to be done in March 2011.
    Senator Pryor. If I recall, Little Rock has their set of 
issues, and Georgia, Massachusetts, and Florida, they are all a 
little different. But are they generally following on that same 
track that, in effect, the taxpayer is getting a little less 
than what we had originally bargained for? But the work is back 
on track and things are moving to, under the circumstances, a 
conclusion that is relatively satisfactory?
    Ms. Ferguson. Absolutely. Each one of them is similar. Each 
project is different in some respects. Some--at Patrick Air 
Force Base, we added some additional homes to the deal. 
Originally, it was all the houses were off base. We did roll in 
some houses that were on base to the deal.
    Part of the difficulty with the work out of American Eagle 
is there was some collapsed bonds. There wasn't enough money 
available to do what was done originally. And because of the 
financial crisis and the economy, we were unable to go out and 
get additional financing. So we had to live within the dollars 
that were available at the time.
    Work is progressing at all four bases. At Patrick Air Force 
Base, they are demolishing 111 houses right now, and those 
should be complete shortly. They have begun renovation of 435 
homes that were brought into the deal in the north and central 
housing.
    At Moody Air Force Base, they are completing 50 of the 
homes that American Eagle had started. And at Hanscom Air Force 
Base, I actually just came back from a trip to Hanscom Air 
Force Base and visited up there, and they are completing 26 
houses that American Eagle started. And they have done a great 
job.
    On the 1st and 2nd of June, I am traveling to Little Rock, 
Patrick, and Moody Air Force Bases to do another touch with the 
other three bases----
    Senator Pryor. Great.
    Ms. Ferguson [continuing]. To get hands on in how they are 
doing.
    Senator Pryor. Great. Thank you for doing that.
    Now let me ask, from this point moving forward, have you 
prepared a set of lessons learned, things that if you could go 
back, you would do them differently and a better game plan as 
we move forward? Do you have that?

                    AMERICAN EAGLE--LESSONS LEARNED

    Ms. Ferguson. Absolutely. We have learned a lot of lessons 
from American Eagle and not just the Air Force, but the Navy 
and the Army also did as well. And I will go through just a 
couple of things the Air Force has done and how we have changed 
our processes as we have taken lessons learned from American 
Eagle.
    The first thing we did is we centralized source selection 
authority, and actually, that authority resides with me and my 
office. Before, when we awarded the four American Eagle 
projects, there were different source selection authorities for 
each one of the four. They were all awarded within a 1-year 
time period. And so, we weren't able to see those things that 
were occurring across the Air Force.
    We have centralized construction management reporting to 
the Air Force Center for Engineering and the Environment down 
in San Antonio, and they have got standard construction 
reporting, and they have got financial and construction 
reviews. We monitor almost on a daily basis some key 
performance indicators. We monitor the construction schedules, 
the budgets, the financial indicators, the debt covenants, and 
the operating expenses.
    We do, along with our partners, do customer service and 
satisfaction surveys. We do a monthly in-depth review at my 
level of the execution of these projects. We have initiated 
also pretty robust development review visits where we send a 
team out from Air Force Center for Engineering and the 
Environment to go out and actually touch on the ground on a 
pretty frequent basis the issues that are happening there.
    Senator Pryor. I think all of that is good because I think 
actually privatization for housing does make a lot of sense, 
but we just have to make sure that we manage it properly.
    One last question on that specific deal, again, I think 
there were four bases involved in four different States. Is 
there anything right now that the Air Force is doing with 
regard to American Eagle? Any recourse, any lawsuit, trying to 
recover some of the lost money, or have we blacklisted them for 
future projects? What, if any, actions has the Air Force taken 
with regard to American Eagle?
    Ms. Ferguson. I will have to get you an update on that. 
They were working through--our general counsel is working 
through their review of the potential debarment, and we will 
get you an update on that. I just don't have a current status.
    [The information follows:]

                             American Eagle

    An ongoing investigation into American Eagle's conduct continues. 
As information is developed and made available through the 
investigation, the Air Force Suspension and Debarment Official will 
continue to monitor whether there exists a sufficient basis to require 
a suspension or debarment action to protect the Government's interests 
in accordance with 48 C.P.R. Subpart 9.4. In the meantime, as it 
relates to American Eagle's responsibility to be a contractor to the 
U.S. Government, before awarding a contract to American Eagle or any of 
the major corporate entities making up American Eagle, in accordance 
with 48 C.P.R. Subpart 9.1, contracting officers throughout the Federal 
Government will be required to make an affirmative determination of 
responsibility. The affirmative responsibility determination requires 
contracting officers to verify that prospective awardees (a) have 
adequate financial resources to perform a given contract; (b) be able 
to comply with the contract requirements; (c) have a satisfactory 
performance record; (d) have a satisfactory record of integrity and 
business ethics; (e) have the necessary capabilities to perform the 
contract; (f) have the necessary facilities to perform the contract; 
and (g) otherwise be qualified and eligible to receive an award. Apart 
from removing American Eagle from the housing privatization projects, 
at this time the Air Force has not initiated any other action against 
American Eagle.

    Senator Pryor. Thank you.
    Mr. Chairman, just so you will know, my thought is, if you 
have a company like American Eagle that just doesn't honor its 
obligations, its contracts it has made, my sense is they ought 
to be--there ought to be some sort of so-called ``death 
penalty'' for them or some sort of blacklist where for a period 
of years they just can't bid on these contracts.
    But anyway, we can talk about that in another context.
    Thank you.
    Senator Johnson. I will take that under advisement.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

      COAL TO LIQUID FACILITY NEAR EIELSON AIR FORCE BASE, ALASKA

    Ms. Ferguson, I want to ask about a situation up north as 
it relates to Eielson and Fairbanks, the community that is the 
largest community in relation to that base there.
    Recognizing that the Air Force has embarked on this 
strategy to promote the development of synthetic fuels, one 
that I heartily endorse, last year in the fiscal year 2009 
Defense Appropriations Act, there were $5 million in O&M funds 
that was set aside, another $5 million in research and 
development funds that was set aside to study the feasibility 
of a coal-to-liquids facility near Eielson.
    And the Fairbanks North Star Borough, which is the local 
government there, has been working on this project for quite 
some time. They have defined several issues that they believe 
are very important to resolve in order to decide how to move 
this forward and whether to go forward with the project.
    The Air Force is now in the process of commissioning two 
studies now, and it is my understanding that the Fairbanks 
North Star Borough believes that these studies will not answer 
the questions about this project, which really do need to be 
answered now. And apparently, it wasn't up until just about a 
week ago that the Air Force actually met with the community 
leaders about the problem.
    The community leaders don't feel that the Air Force has 
been listening to their concerns, and the concern is that they 
will go forward, spend $10 million on studies that may have 
very little value.
    So the question that I have of you this afternoon is 
whether the Air Force is prepared to work with the leadership 
of the Fairbanks North Star Borough to address the concerns 
about how this $10 million is going to be spent?
    Ms. Ferguson. That is a great question. Absolutely, the Air 
Force is committed to work with the community of Fairbanks and 
the Fairbanks Economic Development Council (FEDC) up there as 
we work through how we spend this $10 million and how do we 
best support the community as we move forward.
    As you point out, there was a meeting just recently with 
the community that was on the 3rd of May, and the feedback I 
got out of the meeting is there was a lot of issues that were 
raised. And I think it helped to alleviate some of the concerns 
of the community at that time.
    And the purpose of the meeting was really to provide them 
an update as to where the Air Force was, and to be quite 
honest, it was hard for the Air Force to get started on this. 
It was an unusual earmark. We weren't quite sure how to work 
it, how to work it with the community. So I think that is why 
there was some delay in beginning to talk to the community.
    The folks at the local level were concerned, as you point 
out, on how the Air Force was going to go forward, what were 
the studies that we are going to do, how we were going to 
integrate the community in that. And I can tell you just a 
couple of things.
    The Air Force is really doing three studies. One is the 
research on the feasibility of a coal-to-liquid plant. Can it 
work up there? How will it work? What are the things that need 
to be done to make that work?
    And then the second thing is an environmental baseline 
study, which you have to do for any project. And then the third 
thing, and this may be one of the things the community is 
concerned about, is the mission compatibility study. How would 
a coal-to-liquid plant work alongside the existing missions or 
potential future missions at Eielson Air Force Base?
    So there are kind of three parallel studies all going on. 
Those will all come together mid to late summer, July-August 
timeframe. There is actually another meeting up there today 
with General Chandler, the Pacific Air Forces (PACAF) 
commander. And he is meeting with Mayor Whitaker and the FEDC 
folks today.
    And then there will be another follow-on meeting in late 
July, early August that talks about, the results of the 
preliminary studies and helps to map out a way forward.
    Senator Murkowski. Well, I am pleased to see that there is 
a greater level of communication. I think the community's 
concerns about how these dollars are going to be spent are good 
and fair and legitimate. And in order for this to work, there 
has got to be a full understanding as to how the project truly 
does play forward.
    And I appreciate--I have had an opportunity myself to sit 
in on the initial meeting, and you had all the stakeholders in 
the same room. And there was a great deal of energy and a great 
attitude about the feasibility of how we can really make this 
work. Since then, everything has kind of fallen by the wayside, 
and the level of communication has not been what it needs to 
be.
    So I would just encourage that there be that level of 
coordination and collaboration between the leadership within 
the Fairbanks community and the Air Force. So I appreciate 
that.

       BRAC 2005 CLOSURE OF KULIS AIR NATIONAL GUARD BASE, ALASKA

    And then one final question, and this relates to the 2005 
BRAC and Kulis Air National Guard Base there in Anchorage. We 
think, within the community, that this has been a win in terms 
of closures--a win for the Air Force and a win for the 
community. Because once Kulis moves then over to Elmendorf, the 
land that Kulis currently occupies can be put to economic 
development.
    So the question quickly to you is whether or not Kulis is 
on track and whether or not there is adequate funding to 
complete that BRAC process there at Kulis?
    Ms. Ferguson. Absolutely. Kulis Air National Guard Base is 
on track for September 15, 2011. And we do not need any 
additional funding. The Air Force has fully funded BRAC not 
just at Kulis, but across the Air Force.
    And we monitor the execution of that very closely. We do 
quarterly program management reviews. The last one was just 
under a month ago, and so far everything is on track and on 
budget.
    Senator Murkowski. Good. I always like good news like that.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Johnson. Thank you, Senator.
    I would like to thank all of our witnesses for appearing 
before the subcommittee today. We look forward to working with 
you this year on what is likely to be a very compressed 
schedule.
    For the information of members, questions for the record 
should be submitted by the close of business on May 15.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Daniel K. Inouye

                          F-22 FOR HAWAII ANG

    Question. Hawaii's Air National Guard will receive its allocation 
of twenty F-22 fighters in February 2011.
    Do you believe that the two projects requested in fiscal year 2010 
will be completed, or near completion, when the planes arrive?
    Answer. Given the above information that F-22 fighters will begin 
arriving at Hickam Air Force Base, Hawaii in February 2011, it is 
likely that the two projects requested in fiscal year 2010 will be 
underway, assuming the current President's Budget request is passed to 
provide funding at/near the start of the fiscal year in October 2010. 
However, it is unlikely that the two projects will be nearing 
completion when the fighters arrive.
    Question. Hawaii's Air National Guard will receive its allocation 
of twenty F-22 fighters in February 2011.
    Could you please explain the process by which priority was given to 
the F-22 military construction projects required at Hickam AFB?
    Answer. The Air Force prioritized basing locations through an 
integrated process that considered mission requirements, available 
space/facilities, timing of aircraft arrivals, and available military 
construction funding. Within this prioritization methodology, the 
Hickam Air Force Base, Hawaii projects were aligned against fiscal 
years 2010-2013. The Air National Guard conducted site surveys and Site 
Activation Task Forces at Hickam Air Force Base which were attended by 
representatives from the Headquarters Pacific Air Forces staff and the 
F-22 Systems Program Office as well as the host unit scheduled to 
operate the aircraft. Based on operational requirements, sequencing of 
construction, constructability of the available sites, and funds 
available through the military construction program, the first two 
projects were aligned against fiscal year 2010. These projects provide 
critical aircraft parking apron/taxiway pavements ($7 million) and the 
dedicated Low Observable/Composite Repair Facility ($26 million) needed 
to begin operating the aircraft from Hickam Air Force Base, Hawaii.
    Question. The Department of Defense recently announced its 
intention to halt production of the F-22 in fiscal year 2010. Plans to 
construct additional infrastructure at Hickam AFB for the F-22s, bed 
down and other support facilities, is scheduled to occur in the next 4 
years.
    What, if any, impact does the plan to discontinue production of the 
F-22, and changes to the F-22 allocations or scheduled delivery, factor 
into the prioritization of future F-22 projects at Hickam?
    Answer. The fiscal year 2010 President's Budget request shows 
aircraft arriving at the 154th Wing, Hickam Air Force Base, Hawaii 
beginning in the first quarter of fiscal year 2011. The total delivery 
is programmed to be completed with 18 primary aircraft authorized by 
the end of the first quarter of fiscal year 2012. Currently, there is 
no programmed impact to the prioritization of future F-22 projects at 
Hickam Air Force Base, Hawaii based on the Department of Defense's 
intent to halt production of further F-22 aircraft.

                SHORT AUXILIARY FIELDS (SAAF) IN HAWAII

    Question. Hawaii's location in the Asia-Pacific region provides 
many opportunities and challenges to our military. Strategically 
located in the Pacific, Hawaii presents many unique challenges that 
include the ability to respond to threats in a vast geographic area, 
and when called upon, provide humanitarian assistance during times of 
disasters. Our military is engaged in Overseas Contingency Operations 
in Afghanistan and Iraq, which increased the pace of deployments for 
our men and women in uniform. These deployments require our service 
members to maintain a high level of training and readiness. One of the 
training requirements is proficiency to land on Short Auxiliary 
Airfields (SAAF). Hawaii does not have a SAAF runway for C-17 crews to 
complete their qualifications requirements, and must fly to the 
continental United States. This increases costs for the Air Force, 
results in a loss of valuable man-hours are lost, and increases the 
strain on the C-17s.
    Does the Air Force plan to budget for the construction of an SAAF 
in the State of Hawaii in the near future, and what annual costs are 
incurred by the Air Force in its current arrangement to maintain C-17 
crews' qualification requirements versus the cost of construction an 
SAAF?
    Answer. The Air Force is addressing the C-17 Short Auxiliary 
Airfield (SAAF) training requirements through our standard military 
construction program. The project proposed in support of this 
requirement competes against other existing requirements on an annual 
basis.
    The Air Force is minimizing costs associated with annual SAAF 
training requirements for Hickam Air Force Base, Hawaii C-17 aircrews 
by using simulated SAAFs on Kaneohe Bay Marine Corps Air Station or 
Kalealoa (John Rogers/Barbers Point Airfield). The use of these 
simulated SAAFs, such as a painted SAAF on the runway at Kaneohe Bay 
Marine Corps Air Station, requires a temporary 15th Operations Group 
Commander waiver to the Air Force C-17 SAAF training standard. Any 
initial or requalification C-17 aircrew training must be completed on 
an actual SAAF runway.
                                 ______
                                 

            Questions Submitted by Senator Mary L. Landrieu

          WEAPONS LOAD TRAINING FACILITY AT BARKSDALE AFB, LA

    Question. With the delivery of the full President's Budget on 
Friday, my staff has completed an initial review of the military 
construction projects for the State of Louisiana. Our quick review has 
indicated just one Department of Defense project: A new ``Warrior in 
Transition Complex'', at Fort Polk, for our Wounded Warriors. My first 
question is for the Air Force. ``Reinvigorate the Nuclear Enterprise'' 
is currently, your number one service priority. The stand-up of Global 
Strike Command is a clear message of that stated priority. However, 
adequate training facilities are critical to sustaining this mission 
area. The 2nd Bomb Wing, located at Barksdale Air Force Base, has an 
urgent need for a new Weapons Load Training Facility. This facility 
will directly support training of our crews in the proper processes and 
procedures for nuclear and conventional munitions loading of the B-52. 
This facility, which directly supports the Air Force's number one 
priority, is currently not funded for fiscal year 2010.
    Can you explain why?
    Answer. Projects identified by the New Discovery review were 
prioritized and the most critical projects were funded first (two Minot 
Air Force Base, North Dakota facility projects in fiscal year 2010). 
The Weapons Load Training Facility is a solid Air Force military 
construction requirement. Currently, there are existing workarounds 
that temporarily allow mission accomplishment. This requirement will 
continue to be evaluated during the upcoming budget cycle and the 
Quadrennial Defense Review.

      MILCON IN THE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009

    Question. Just a few short months ago, The American Recovery and 
Reinvestment Act of 2009 provided the Department of Defense nearly $2.2 
billion in military construction funding. I'm disappointed that the 
State of Louisiana received none of this funding.
    For the Air Force.can you explain the process you followed to 
prioritize and submit military construction projects for this funding, 
to include your Guard and Reserve components?
    Answer. The Air Force received $310.1 million in military 
construction funds through the American Recovery and Reinvestment Act 
of 2009. The Military Construction funds were provided in the following 
categories: Air National Guard ($50 million), Child Development Centers 
($80 million), Troop Housing ($100 million), and Military Family 
Housing ($80.1 million). There were no funds provided for Air Force 
Reserve military construction activities.
    Air National Guard projects were selected from projects previously 
validated by the States and Air National Guard leadership. Several 
considerations were taken into account in project selection including: 
ability to award quickly, design complete projects ready for 
solicitation, State workload (including Wing Deployment status), and 
maximizing available funding at multiple locations.
    The Child Development Center (CDC) projects represent the top seven 
priorities in the Air Force's CDC construction program. Projects were 
previously prioritized by the major commands and Air Force Services 
during the fiscal year 2009 budget process.
    In selection of the troop housing, or dormitory projects, the Air 
Force followed the Air Force Dormitory Master Plan in selecting 
military construction projects. Additional consideration was applied 
with regard to the ability to execute projects quickly and maximizing 
the available ARRA funds.
    Lastly, two Military Family Housing military construction projects 
were selected based on the ability to execute the projects quickly. In 
the case of Malmstrom AFB, MT the project corrected structural safety 
deficiencies posing a threat to our Airmen and their families.

                         GLOBAL STRIKE COMMAND

    Question. Ms Ferguson, you played a lead role in the site selection 
process for Global Strike Command. In April 2009, the Air Force 
announced that Barksdale Air Force Base was the chosen location to bed 
down this new command. I understand that the Environmental Impact Study 
is still in progress. We're anxiously awaiting the final results. As 
we've previously discussed with both Secretary Donley and General 
Schwartz, the cyber innovation center, located just outside Barksdale 
Air Force Base, is a world-class facility, designed to house and 
support cyber technology development. Yet, it was constructed to 
support the Air Force. I'd encourage the Air Force and this committee, 
to consider this facility in both the short and long-term plans, as a 
realistic, cost-effective method of standing up Global Strike Command 
at Barksdale Air Force Base.
    What fiscal year 2010 funding has been requested to prepare for 
this transition, and to achieve the initial operating capability of 
Global Strike Command at Barksdale AFB, pending the EIS results? What 
is the Air Force's latest estimate for completing and announcing the 
Environmental Impact Study results?
    Answer. $20 million has been requested in the fiscal year 2010 
President's Budget to fund the provisional command's operations and 
transition of Global Strike Command to its final location. Currently, 
we estimate that the environmental assessment will be complete the 
final week of June with an announcement shortly thereafter.

          MILITARY COMMAND LOCATIONS OFF MILITARY RESERVATIONS

    Question. Military commands are traditionally located on a military 
base or post, with force protection being one of the driving 
requirements and benefits of doing so. However, one exception that 
comes to mind is the United States Southern Command, located in Doral, 
Florida. In fact, the new consolidated headquarters, authorized by the 
2008 National Defense Authorization Act, has paved the way for 
construction of their new headquarters on 55 acres of Florida-owned 
land immediately adjacent to the command's current facility. Both the 
current and the future headquarter buildings are located outside the 
confines of a military facility.
    What would prohibit a major command from being located off-base, 
even in an interim fashion?
    Answer. There are no regulatory requirements which would prohibit a 
military command (e.g., headquarters) from being located off-base; 
however, the exacting force protection requirements mandated by the 
Department of Defense would make an off-base location very costly. 
Department of Defense guidance, contained in various DOD instructions 
and Unified Facility Criteria, requiring stand-off distances from roads 
and other buildings, controlled perimeters, positive identification of 
persons accessing the facility and other stringent anti-terrorism and 
security measures are expensive to attain. When the U.S. Southern 
Command Headquarters relocated to Miami, Florida in 1997, the extensive 
array of anti-terrorism protective requirements were not yet 
established. We note that, due to the current anti-terrorism guidance 
and BRAC decisions, efforts are currently underway to re-locate 
significant Washington, DC-area headquarters staff elements from off-
base facilities to various military installations within the National 
Capitol Region for similar reasons.

                          SUBCOMMITTEE RECESS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 4 p.m., Tuesday, May 12, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
